<html>
<title> - BUILDING SUCCESS: IMPLEMENTATION OF THE SECURE RURAL SCHOOLS PROGRAM</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
     BUILDING SUCCESS: IMPLEMENTATION OF THE SECURE   RURAL SCHOOLS 
                                PROGRAM

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                        Thursday, July 29, 2010

                               __________

                           Serial No. 111-64

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov
      




                  U.S. GOVERNMENT PRINTING OFFICE
57-667                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a4c3d4cbe4c7d1d7d0ccc1c8d48ac7cbc98a">[email&#160;protected]</a>  

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Frank Pallone, Jr., New Jersey       Jeff Flake, Arizona
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Madeleine Z. Bordallo, Guam          Louie Gohmert, Texas
Jim Costa, California                Rob Bishop, Utah
Dan Boren, Oklahoma                  Bill Shuster, Pennsylvania
Gregorio Sablan, Northern Marianas   Doug Lamborn, Colorado
Martin T. Heinrich, New Mexico       Adrian Smith, Nebraska
Ben Ray Lujan, New Mexico            Robert J. Wittman, Virginia
George Miller, California            Paul C. Broun, Georgia
Edward J. Markey, Massachusetts      John Fleming, Louisiana
Peter A. DeFazio, Oregon             Mike Coffman, Colorado
Maurice D. Hinchey, New York         Jason Chaffetz, Utah
Donna M. Christensen, Virgin         Cynthia M. Lummis, Wyoming
    Islands                          Tom McClintock, California
Diana DeGette, Colorado              Bill Cassidy, Louisiana
Ron Kind, Wisconsin
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            Don Young, Alaska
Grace F. Napolitano, California      Elton Gallegly, California
Rush D. Holt, New Jersey             John J. Duncan, Jr., Tennessee
Madeleine Z. Bordallo, Guam          Jeff Flake, Arizona
Dan Boren, Oklahoma                  Henry E. Brown, Jr., South 
Martin T. Heinrich, New Mexico           Carolina
Peter A. DeFazio, Oregon             Louie Gohmert, Texas
Maurice D. Hinchey, New York         Bill Shuster, Pennsylvania
Donna M. Christensen, Virgin         Robert J. Wittman, Virginia
    Islands                          Paul C. Broun, Georgia
Diana DeGette, Colorado              Mike Coffman, Colorado
Ron Kind, Wisconsin                  Cynthia M. Lummis, Wyoming
Lois Capps, California               Tom McClintock, California
Jay Inslee, Washington               Doc Hastings, Washington, ex 
Stephanie Herseth Sandlin, South         officio
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Pedro R. Pierluisi, Puerto Rico
Ben Ray Lujan, New Mexico
Nick J. Rahall, II, West Virginia, 
    ex officio



                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Thursday, July 29, 2010..........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     2
        Prepared statement of....................................     2
    Hastings, Hon. Doc, a Representative in Congress from the 
      State of Washington........................................    24
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................     1

Statement of Witnesses:
    Coriz, Elias, Chairman, Rio Arriba County Commission, 
      Espanola, New Mexico, on behalf of the New Mexico 
      Association of Counties....................................    37
        Prepared statement of....................................    38
    Groseclose, Shirlene, Spanish Teacher, Pocahontas County, 
      Marlinton, West Virginia...................................    25
        Prepared statement of....................................    27
    Holtrop, Joel, Deputy Chief, National Forest System, U.S. 
      Forest Service, U.S. Department of Agriculture.............     5
        Prepared statement of....................................     7
    Jacobs, Mike, President, Arkansas Association of Counties, 
      Clarksville, Arkansas......................................    41
        Prepared statement of....................................    44
    Pearce, Hon. Paul, Commissioner, Skamania County, Washington, 
      on behalf of the National Association of Counties, 
      Stevenson, Washington......................................    20
        Prepared statement of....................................    23
    Roberson, Edwin, Assistant Director, Renewable Resources and 
      Planning, Bureau of Land Management, U.S. Department of the 
      Interior...................................................    10
        Prepared statement of....................................    11
    Stouder, Scott, Idaho Public Lands Director, Trout Unlimited, 
      Pollock, Idaho.............................................    29
        Prepared statement of....................................    31
    Thayer, Allan, President, Dolores RE-4A Board of Control, 
      Dolores, Colorado..........................................    34
        Prepared statement of....................................    36



 OVERSIGHT HEARING ON ``BUILDING SUCCESS: IMPLEMENTATION OF THE SECURE 
                        RURAL SCHOOLS PROGRAM.''

                              ----------                              


                        Thursday, July 29, 2010

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:04 a.m. in 
Room 1334, Longworth House Office Building, Hon. Raul M. 
Grijalva [Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Kildee, DeFazio, Herseth 
Sandlin, Lujan, Rahall, Bishop, and Hastings.
    Mr. Grijalva. Let me call to order the Subcommittee on 
National Parks, Forests, and Public Lands for our hearing on 
Building Success: Implementation of the Secure Rural Schools 
Program. The Subcommittee will come to order.
    At the outset, let me turn to the Chairman of the Full 
Committee, Mr. Rahall, for comments and introductions. Sir.

STATEMENT OF THE HONORABLE NICK J. RAHALL, II, A REPRESENTATIVE 
          IN CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you very much, Mr. Chairman. I certainly 
salute you and Ranking Member Bishop for taking the time to 
have this oversight hearing today on Building Success: 
Implementation of the Secure Rural Schools Program.
    This program goes back a number of decades. It has been 
very beneficial to a number of counties in the rural parts of 
this Nation, and especially in the district that I am honored 
to represent, and I salute you and Ranking Member Bishop for 
having this hearing today.
    I also am very pleased and honored to welcome to the 
Subcommittee one of my constituents who lives in Pocahontas 
County. She has taken the time from her schedule, and has come 
here to our Nation's Capital to share with us her experience 
and professionalism.
    She knows firsthand the struggles of rural schools, and she 
has personally sacrificed to make it possible for hundreds of 
children to learn Spanish.
    As you will hear in her testimony today, learning a foreign 
language is a crucial component of making rural schools and 
rural students competitive when applying to college.
    This would not be possible without the funds that are made 
available through the current reauthorization of the Secure 
Rural Schools Program, which I strongly support, and look 
forward to working with you, Chairman Grijalva, and Ranking 
Member Bishop, as we further our efforts.
    I thank Mrs. Groseclose for making the trip today. 
Shirlene, it is very much appreciated, and your testimony will 
be very much appreciated by not only the Members present today, 
but by all of us as we share your comments as they are made a 
part of the record of today's hearing.
    So I thank you for being with us today, Shirlene, and I 
yield back to the Chairman.

 STATEMENT OF THE HONORABLE RAUL M. GRIJALVA, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you very much, Mr. Chairman. Let me 
just say that across the country real communities and the 
Federal Government are neighbors. In many cases, that 
relationship leads to good opportunities for economic 
partnerships, as we heard during our last hearing.
    It can also create challenges for rural communities when 
they are continually exposed to the boom and bust cycles of 
extractive industries on public lands, such as timber.
    The Secure Rural Schools and Communities Self-Determination 
Act of 2000 was originally designed to help rural communities 
weather the storm of declining timber receipts on public lands.
    The timber industry has not recovered and the recent 
economic recession has further depressed that struggling 
market. Congress intervened again in 2008, and granted a four-
year reauthorization of the Secure Rural Schools Program.
    One of the components of the reauthorization was a gradual 
wrap-up of funds to local communities, with an expectation that 
local governments would begin to move away from Federal dollars 
toward more sustainable budgets.
    We are now two years through that reauthorization of the 
program, and it is a good time to review the successes and the 
continuing challenges of the program. It is our hope and 
intention that the Federal Government will always be a good 
neighbor to the country's rural communities.
    However, we know that the best help we can give will lead 
to long-term sustainability. I want to thank the witnesses for 
traveling so far today to join us. I look forward to hearing 
from you. Now, let me turn to our Ranking Member, Mr. Bishop, 
for any opening comments that he may have. Sir.
    [The prepared statement of Chairman Grijalva follows:]

          Statement of The Honorable Raul Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    The Subcommittee will now come to order. Thank you.
    Across the country, rural communities and the Federal Government 
are neighbors. In many cases, that relationship leads to good 
opportunities for economic partnerships, as we heard during our last 
hearing. It can also create challenges for rural communities, when they 
are continually exposed to the boom and bust cycles of extractive 
industries on public lands, such as timber.
    The Secure Rural Schools and Community Self-Determination Act of 
2000 was originally designed to help rural communities weather the 
storm of declining timber receipts on public lands. The timber industry 
has not recovered, and the recent economic recession has further 
depressed the struggling market.
    Congress intervened again in 2008 and granted a four-year 
reauthorization of the Secure Rural Schools program. One of the 
components of the reauthorization was a gradual ramp down of funds to 
local communities, with an expectation that local governments would 
begin to move away from federal dollars toward more sustainable 
budgets.
    We are now two years through the reauthorization of the Secure 
Rural Schools program, and it is a good time to review the successes 
and challenges of the program.
    It is our hope and intention that the Federal Government will 
always be a good neighbor to the country's rural communities. However, 
we know that the best help we can give will lead to long-term 
sustainability.
    I want to thank all the witnesses for traveling so far today to 
join us. I look forward to hearing from all of you. And I now turn to 
the Ranking Member, Mr. Bishop, for any opening comments he may have.
                                 ______
                                 

  STATEMENT OF THE HONORABLE ROB BISHOP, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Bishop. I thank you, Mr. Chairmen, for your opening 
statements. I thank those witnesses who are here to testify 
before us on this particular issue. It is indeed a significant 
issue for those of us in the West, and throughout the entire 
United States.
    I would like to begin by saying that I do wish that PILT 
would have been included in the agenda for this hearing given 
the longstanding commitment of the Federal Government to the 
PILT program, which came decades before Secure Rural Schools.
    And in many ways the two still are tied together 
inextricably. I view this as a missed opportunity now to have 
included that as part of the discussion. Seeing how the 
Administration has tried to delay PILT payments by nearly two 
months in early June for what appears to be no clear reason.
    It would have been nice to talk about the implementation of 
that program as well. So I hope that, following this hearing, 
those who are here to testify today about the Secure Rural 
Schools remain as committed to seeing that the PILT program is 
also equally treated.
    The way a government deals with property, especially 
personal property, is a window to the soul of that government. 
Sir Henry Maine once wrote in the Village Communities that 
nobody is at liberty to attack several property and say, at the 
same time, that he values civilization.
    The way that this government has been treating property 
impacted by Secure Rural Schools over the last 30 years--
especially in these particular counties--is certainly a cause 
for problems, and does not speak well to the soul of what we 
are trying to do.
    And, indeed, what we found right now is looking for 
solutions which would make Rube Goldberg proud. I want to thank 
those who are testifying today, especially on the second panel, 
ahead of time.
    I know that you come here today to talk about your 
concerns, at no small inconvenience to you or the 
municipalities that paid for you to come here. I apologize to 
you in advance that I will be leaving early and may not be able 
to hear that second panel.
    It is one of the joys of working in Congress, where time 
management is not an art form but, in fact, totally ignored. 
However, having said that, I also recognize how land has always 
been tied to the funding of schools.
    When Henry VIII closed monasteries, and redistributed the 
land to the barons who got that property, one of the 
requirements was to fund the education programs of the day. 
Connecticut was the first State to try and set land aside. They 
set 3 million acres that they tried to sell to form a permanent 
school trust fund.
    Naturally, in the workings of Connecticut, the land that 
they tried to sell was in Ohio but, nonetheless, they were at 
least trying to sell some land. Texas, which was wise enough at 
admission to keep all of its land, did still put 17,000 acres 
aside for a school trust fund.
    The State of Georgia in 1777 was the first State to 
actually assist local communities in funding education. It is 
interesting to note that the counties of Georgia at the time 
rejected the State assistance as an insult to their ability to 
cope with the situation at hand. My how times have changed.
    So to cautiously borrow a phrase from a certain former 
President, I feel your pain when it comes to your issue. Before 
I had the fortune of getting elected to Congress, I was a 
school teacher, a teacher in a State that has 70 percent of its 
land owned by the Federal Government--and also a State that is 
one of those 15 States that has a hard time funding education 
primarily due to that fact. I also served in the State 
Legislature, where for 16 years I worked on the school funding 
issues as part of that particular committee.
    So I know what it takes to stare at funding amounts that 
don't cover what we perceive to be our schools' needs. I know 
what it is like to deal with worries of getting pink slips 
because there are rumors that funds are not going to be there 
to keep the school open next year.
    I know how important it is to have some level of certainty 
when it comes to funding, and if funding will not be available, 
and how important it is not to give false hopes and unclear 
answers to individuals.
    I know what it is like to try and fund small rural schools, 
which by their very nature are going to be more expensive than 
schools in an urban setting. So I understand what you are all 
talking about and how you are trying to deal with what may 
become the unvarnished truth.
    I am appreciative of how some States, and I look 
specifically at Oregon, have tried to step up to try and have a 
statewide solution to the pain that their schools and these 
Secure Rural School areas, rural counties that no longer have 
resource abilities, feel.
    I am also chagrined at the last meeting we had by listening 
to what California was doing, which basically was nothing, to 
try and solve the problem on a State level. I certainly hope 
that situations have changed now, and that California and so 
many other states are looking for statewide help and solutions 
to part of these problems.
    Since the main topic of this hearing today is 
implementation of Secure Rural Schools, I was also hoping that 
we would have witnesses from the Department of Agriculture 
rather than just the Forest Service, not that I am opposed to 
the Forest Service, or Mr. Holtrop, but we are hearing that the 
Department at the Secretary level is taking too long to appoint 
people to RACs.
    So one of the issues that I would have liked to have 
discussed, and to be brought up by the several witnesses, is 
also the issue of roads, which the Secure Rural Schools Program 
helps fund.
    I believe we need to begin the discussion of the future of 
this program since the issue of reauthorization will be 
discussed. During the last round of reauthorization debate, we 
were told that the issue of forest management and getting the 
timber industry back on its feet was a separate discussion from 
the Secure Rural Schools.
    I feel that is a sad mindset, because the truth is that it 
must be part of a long-term solution. So I applaud the National 
Forest Counties and Schools Coalition Concept Paper that Mr. 
Coriz, if I pronounce that properly, I hope, mentions in his 
testimony.
    It is a step in the right direction, and should be a step 
in the right direction in this discussion. We need to find a 
way to pay for this program that does not involve deficit 
spending.
    A start would be to use some of the $900 million from 
offshore drilling revenue to pay for this program, instead of 
simply using it to buy more Federal land that we cannot manage.
    Long term, we must be looking at ways to return control 
back to the local level, and solutions that don't require 
constant lobbying efforts by your communities to grovel before 
Congress just to get your basic needs met. Mr. Chairman, I 
yield back.
    Mr. Grijalva. Thank you, and let me invite the first 
panelists, please. Thank you very much gentlemen, and welcome 
back, I guess, Joel. Joel Holtrop, Deputy Chief, Forest 
Service, United States Department of Agriculture. Sir.

STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, FOREST SERVICE, UNITED 
                STATES DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Mr. Chairman, and members of the Subcommittee, 
thank you for the opportunity to present the views of the 
United States Department of Agriculture regarding the 
implementation of the Secure Rural Schools and Community Self-
Determination Act.
    My comments will focus primarily on our experiences with 
Title II, Special Projects, of the Secure Rural Schools Act. 
Our written testimony provides additional information on Titles 
I and III.
    The Forest Service places tremendous value on the 
relationships fostered under Title II and the work of more than 
100 resource advisory committees nationally. While we can put a 
dollar value on the projects, the relationships built among 
tribal, county, and school officials, interest groups, and 
other stakeholders, are invaluable.
    An eligible county that receives a share of the State 
payment greater than $100,000 is required to allocate 15 to 20 
percent of the payment to Title II, Special Projects on Federal 
lands, or to Title III, county projects.
    Title II funds are to be spent on projects that maintain 
existing infrastructure or enhance the health of ecosystems on 
national forests. The Act calls for the establishment of 
resource advisory committees, commonly referred to as RACs, to 
review and recommend projects to be funded under Title II.
    Each RAC has 15 members, comprised of citizens who have 
volunteered to work together to help recommend projects. 
Diverse interests are represented, including environmental and 
conservation groups, recreation users, and advocates, commodity 
interests, tribal, local governmental officials, and teachers, 
and officials from local schools.
    RACs generally meet several times each year to review 
proposed projects. Members learn about the richness of natural 
resources on the national forests, and share their knowledge of 
the natural and social environments.
    They trade viewpoints and opinions. They discuss legal 
concerns and implementation strategies with Federal officials. 
They deliberate and recommend a list of projects to fund.
    This collaboration among many interests leads to community 
supported projects. Types of projects that have been 
implemented include maintenance or obliteration of roads and 
trails, maintenance of infrastructure, stream and watershed 
restoration, control of noxious and exotic weeds, and 
reestablishing of native species.
    Fuels reduction has been very important to many RACS to 
help protect important watersheds, habitats, and communities. 
The result has been an unequivocal success. RACs improve 
cooperation, increase knowledge, and break down barriers among 
interest groups and local agencies.
    The projects have enjoyed broad-based support without 
appeals or litigation. There are numerous examples of Title II 
successes since 2001, and I will provide three quick examples 
that showcase the diversity of projects, and partners that are 
involved.
    In Southwest Washington, a four county partnership with the 
Forest Service increased the efficiency and effectiveness of 
what were previously poorly coordinated, separate, and 
underfunded programs to reduce noxious weeds. Prior to the 
Title II funding each county had limited means to fund this 
important work to protest habitats and forest health. Through 
the Secure Rural Schools Act, projects recommended by the RAC 
have supported a comprehensive weed control program on national 
forests and county lands, and have enabled each county to 
leverage additional program funds through several other 
partnerships. In fire-prone Northern California, Title II 
funding has supported numerous projects to reduce fuels and 
lessen the risks of the severe effects of wildfire on 
watersheds and communities, spanning several years and numerous 
projects. The Lassen, Modoc, and Shasta Resource Advisory 
Committees, two fire-safe councils, the Forest Service, and the 
Bureau of Land Management have worked together to reduce 
hazardous fuel loads of fire-prone dense undergrowth, with the 
goal of protecting resources on national forests and private 
lands.
    Both the Forest Service and the BLM have leveraged the 
Title II commitment by treating adjacent Federal lands. An 
additional benefit of these projects has been providing 
employment in economically hard-hit rural communities.
    Montgomery County, Arkansas, and the Forest Service have 
had a highly successful cooperative program to maintain 
national forest recreation areas with Title II projects 
recommended by the Ozark-Ouachita RAC.
    The projects help reduce adverse impacts on watersheds and 
wildlife habitat, and improve visitor safety and enjoyment of 
the national forests. In conclusion, for the Forest Service, 
local communities and those who work and play in the national 
forests, Title II has been a success.
    Title II and the RACS create a positive forum for community 
interests to collaboratively participate in the selection of 
resource projects on their national forests, and many valuable 
projects have been completed.
    Thank you for this opportunity to speak, and I will be 
happy to answer any questions that you might have.
    [The prepared statement of Mr. Holtrop follows:]

   Statement of Joel Holtr0p, Deputy Chief, National Forest System, 
      U.S. Forest Service, United States Department of Agriculture

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to present the views of the U.S. Department of Agriculture 
regarding the implementation of the Secure Rural Schools and Community 
Self-Determination Act of 2000, as amended and reauthorized in 2008 
(P.L. 110-343).
Overview
    Since 1908, when Congress enacted what is commonly known as the 
Twenty Five Percent Fund Act (16 USC 500) to compensate local 
governments for the tax-exempt status of the national forests, the 
Forest Service has shared 25 percent of gross receipts from national 
forests with states to help fund public schools and roads. The so-
called ``25 percent payments'' were made to the states for the benefit 
of public schools and public roads in the counties in which national 
forests are located. The allocation of the funds between schools and 
roads varies according to state laws. The receipts, on which the 25 
percent payments are based, are derived from timber sales, grazing, 
minerals, recreation and other land use fees, deposits and credits.
    In the late 1980s, 25 percent payments began to decline 
significantly and fluctuate widely. This was largely due, especially in 
western states, to a significant decline in timber sales. The declines 
and fluctuations created hardships for local officials charged with 
providing services to communities in and near the national forests.
    The decline in timber sales, and corresponding reduction in the 25 
percent payments, was particularly acute in northern California, 
Oregon, and Washington. To address this concern, Congress provided 
``safety net payments'' to counties in California, Oregon, and 
Washington for fiscal years 1994 to 2003. The safety net payments were 
enhanced payments structured to decline annually and was intended to 
help the counties transition to the reduced amount of the 25 percent 
payments.
    Before the safety net payments expired, Congress enacted the Secure 
Rural Schools and Community Self-Determination Act of 2000 (the Secure 
Rural Schools Act), which provided the option of decoupling the 
payments from receipts, by authorizing enhanced, stabilized payments to 
states for fiscal years 2000 through 2006. The Secure Rural Schools Act 
provided eligible counties with two options. A county could elect to 
continue to receive its share of the State's 25 percent payment, which 
fluctuated based on receipts, or the county could elect to receive a 
share of the State's ``full payment amount'', which was a stabilized 
amount. A county that elected to receive a share of the State's full 
payment amount was required to allocate 15 to 20 percent of the 
payments to title II (special projects on federal lands) or to title 
III (county projects). Title II funds could only be spent on projects 
that were recommended by resource advisory committees (RACs). As part 
of the initial implementation of the Act, the Forest Service 
established 55 RACs.
    Congress appropriated payments to states for fiscal year 2007, and 
in October 2008, amended and reauthorized for the Secure Rural Schools 
Act for fiscal years 2008 through 2011. With a few notable exceptions, 
the Secure Rural Schools Act as reauthorized in 2008 mirrors the 2000 
Act. The primary change was a new formula for the stabilized State 
payment, which includes a ramp down of funding each year. In addition, 
the 2008 reauthorization amended the Twenty-Five Percent Fund Act to 
reduce the fluctuations in the 25 percent payments. The 25 percent 
payments are now calculated as the rolling average of the most recent 
seven fiscal years' 25 percent payments.
    In 2008, approximately 70 counties elected to receive a share of 
the State's 25 percent payment (based on receipts), and approximately 
650 counties opted to receive a share of the State Payment (enhanced, 
stabilized). All together, the Forest Service makes payments to 41 
states and Puerto Rico to benefit more than 720 counties, boroughs, 
townships and municipalities.
    The last payment under the Secure Rural Schools Act will be for 
fiscal year 2011. Under current law, in fiscal year 2012, all eligible 
states will receive the 25 percent payment to states calculated using 
the new formula based on a seven-year rolling average of 25 percent 
payments. The total of 25 percent payments for all states is projected 
to be approximately $64 million for fiscal year 2012.
    The Secure Rural Schools Act has three principal titles. The U.S. 
Forest Service defers to the Department of the Interior for Secure 
Rural Schools' activities undertaken by that agency.
Title I--Secure Payments for States and Counties Containing Federal 
        Land
    Title I of the Secure Rural Schools Act, as reauthorized, provides 
the new formula for the State Payment for fiscal years 2008 through 
2011. An eligible county's adjusted share of the State Payment is 
determined by a complex calculation involving multiple factors 
including acres of national forest, the average of three highest 25 
percent payments from 1986 through 1999, and the county's annual per 
capita personal income. The formula reduces the total payments to all 
states by approximately 10 percent of the preceding year for each of 
the four years, 2008 through 2011.
    Eight states (California, Louisiana, Oregon, Pennsylvania, South 
Carolina, South Dakota, Texas, and Washington) receive a transition 
payment in lieu of the State Payment for fiscal years 2008 through 
2010. The transition payment is based on the fiscal year 2006 payment 
and declines by about 10 percent per year. The fiscal year 2011 payment 
to these states will be calculated using the same formula used for the 
other states and will be significantly less than the final transition 
payments in fiscal year 2010.
    The Act directs that the majority of the State Payment be used to 
help fund county schools and roads. This portion of the payment is 
commonly referred to as the title I payment and has averaged about 85 
percent of the total State Payments to date. For fiscal years 2008 
through 2011, title I funds are projected to total nearly $1.5 billion.
Title II--Special Projects on Federal Land
    An eligible county has the option to allocate part of its share of 
the State Payment to title II for projects that maintain existing 
infrastructure or enhance the health of ecosystems on national forests. 
Title II provides for the establishment of resource advisory committees 
to review and recommend projects. The Secure Rural Schools Act as 
reauthorized added to the duties of the committees and expanded the 
interests represented by members.
    Title II projects enhance forest ecosystems, restore and improve 
the health of the land and water quality; and, protect, restore and 
enhance fish and wildlife habitat. Examples are maintenance or 
obliteration of roads, trails, and infrastructure; improvement of soil 
productivity; stream and watershed restoration; control of noxious and 
exotic weeds; and, re-establishment of native species. These projects 
provide employment in rural communities and an opportunity for local 
citizens to advise the Forest Service on projects of mutual interest 
that benefit the environment and the economy. For fiscal years 2008 
through 2011, title II funds are projected to total $172 million for 
projects recommended in more than 300 counties.
Title III--County Funds
    Funds allocated by a county under title III may be used on county 
projects. Title III initially had six authorized uses: search and 
rescue, community service work camps, easement purchases, forest 
related educational opportunities, fire prevention and county planning, 
and community forestry. When the Secure Rural Schools Act was 
reauthorized, Congress limited the use of title III funds to three 
authorized uses: activities under the Firewise Communities program, 
reimbursement for emergency services on national forests, and 
preparation of a community wildfire protection plan. As reauthorized, 
title III now directs each participating county to certify annually 
that title III funds were used for authorized purposes. For fiscal 
years 2008 through 2011, title III funds are projected to total $87 
million.
Additional revenue sharing and payment programs
    Along with the payments to states under the Secure Rural Schools 
Act, the Forest Service shares 25 percent of net revenues from minerals 
receipts, grazing, and other uses of the national grasslands in the 
payments to counties program under the Bankhead Jones Farm Tenant Act, 
(7 U.S.C. 1010-1012). Payments to counties go to approximately 70 
counties in 17 states, and total about $15 million annually. There are 
also payments made under special acts including those in Arkansas for 
Smoky Quartz (Public Law 100-446), in Minnesota related to the Boundary 
Waters Canoe Area (16 U.S.C.  577) and in Washington for the Quinault 
Special Management Area (Public Law 100-638.)
    The Forest Service coordinates with the Bureau of Land Management 
which administers additional payments to certain counties in western 
Oregon under the Secure Rural Schools Act. In addition, national 
forests are included in the eligible federal lands for which the 
Department of the Interior administers the Payments in Lieu of Taxes 
(PILT) program.
Secure Rural Schools Act successes
    For fiscal years 2008 through 2011, the Secure Rural Schools Act 
will provide nearly $1.5 billion for public schools and roads. The 
Forest Service values the relationships fostered with tribal and county 
officials and other stakeholders under title II. The Forest Service 
expects to have 118 resource advisory committees fully functional by 
the end of the year in 33 states. Although the chartering and 
nomination process took longer than anticipated due to the large volume 
of returning and new RACs (118 total), the Forest Service and 
Department have continued to improve and streamline the process.
    Each of the 15-member committees represents diverse interests such 
as environmental and conservation groups, watershed associations, 
forest and mineral development, hikers, campers, off-highway vehicle 
users, hunting and fishing enthusiasts, tribal, state and local 
government officials and teachers and officials from local schools. 
These groups learn about the richness of natural resources on the 
national forests, and share their knowledge of the natural and social 
environment. Members hear one another's views, interests and desires 
for national forest management and come to agreement on projects that 
will benefit the national forests and nearby communities.
    Here are a few examples that illustrate successful projects 
undertaken with title II funding since 2001. In southwest Washington, a 
four-county partnership with the Forest Service increased the 
efficiency and effectiveness of what were previously poorly-
coordinated, separate, under-funded programs to reduce noxious weeds, 
one of several authorized uses of title II funds. Prior to the title II 
funding, each county had limited means to fund this important work to 
protect habitats and forest health. Through the Secure Rural Schools 
Act, projects recommended by the RAC have supported a comprehensive 
weed control program on national forest and county lands and has 
enabled each county to leverage additional program funds through 
several other partnerships. Youth conservation crews and private 
contractors were used to accomplish the work.
    In fire-prone northern California, title II funding has supported 
numerous projects to improve forest health including fuel-breaks to 
reduce the severe effects of catastrophic wildfire on watersheds and 
communities and to protect important fish and wildlife habit. In Lassen 
County alone, partnerships have provided more than $5 million in 
additional resources and support. The additional benefit of these 
projects is to help provide employment in hard-hit rural communities.
    Title II projects have enjoyed broad-based support, and none have 
been appealed. In total, projects valued at $172 million in more than 
300 counties have been funded under Title II to maintain and improve 
the environment and provide local employment.
Conclusion
    The Secure Rural Schools Act has provided more than a decade of 
transitioning payments to eligible states and counties to help fund 
public schools and roads and provided predictably declining payments to 
states to transition to the 25 percent payment. In addition, it has 
also created a forum for community interests to collaboratively 
participate in the selection of natural resource projects on the 
National Forests, and assisted in community wildfire protection 
planning.
    Thank you for the opportunity to discuss this program with the 
Subcommittee. We would be happy to answer any questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, sir. Ed Roberson, 
Assistant Director for Renewable Resources and Planning, Bureau 
of Land Management. Thank you, sir, for being here. Welcome 
back. We look forward to your testimony.

  STATEMENT OF ED ROBERSON, ASSISTANT DIRECTOR FOR RENEWABLE 
    RESOURCES AND PLANNING, BUREAU OF LAND MANAGEMENT, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Roberson. I appreciate it. Thank you both, Chairman and 
Ranking Member, and members of the Committee. I appreciate the 
opportunity for BLM to discuss our implementation of the Secure 
Rural Schools Act at the midpoint of its reauthorization, and 
we have submitted written testimony, and I would just ask that 
it be put in the record.
    Of the 245 million acres of public land managed by the 
Bureau of Land Management, our Secure Rural Schools Act program 
applies exclusively to 2.4 million acres, spanning the 18 O&C 
counties in western Oregon.
    It builds off the foundation of the 1937 Oregon and 
California Lands Act, under which 18 counties receive yearly 
payments equal to 50 percent of the receipts from timber 
harvests on BLM managed lands.
    Those receipts dropped at the beginning of the 1990s due to 
declining harvests in the O&C. The Secure Rural Schools Act 
program strives to support county governments through direct 
payments. It also encourages local economic development through 
restoration projects on public lands.
    The BLM has a minor role in implementing Titles I and III 
of the Act, which provide funds directly to the counties. Just 
as Joel stated, under Title II, that is what I would like to 
focus on.
    The BLM works in active collaboration with Resource 
Advisory Councils (RACs) to fund and implement restoration 
projects that will improve resource conditions on public lands.
    Five RACs, one for each of the BLM districts in western 
Oregon, review proposals, recommend their priorities for Title 
II funding. The RAC members are drawn from local communities 
and represent diverse interests.
    In the two years since the Act was reauthorized the five 
RACS have recommended a total of 319 Title II projects, and the 
BLM has approved more than 14.6 million to implement them.
    Currently, the RACs are reviewing 272 proposals, and we 
expect to receive recommendations on those this summer. Since 
2001 the BLM has used Title II authority to reduce threats from 
insects, disease, and fire, on over 3,500 acres of forests and 
woodlands.
    We have restored nearly 250 acres of grasslands, reduced 
hazardous fuels on 265 acres, constructed and maintained over 
100 miles of recreational trails, eradicated weeds on some 
30,000 acres, and restored about 250 miles of streams.
    No RAC-approved project has been protested, appealed, or 
litigated. With this collaborative process the BLM land and 
resource conditions in the O&C have been improved, and there 
have been jobs provided to local contractors and on-the-ground 
training opportunities have also been made available.
    To give a few examples, in Josephine County, BLM is 
partnering with a cooperative association to provide work crews 
to complete restoration projects, while offering on the job 
experience for local at-risk youth between the ages of 16 and 
21.
    In the Roseburg area, local conservation groups worked with 
the BLM to plant over 3,000 willow poles and restore wetland 
conditions for the endangered Harry Popcorn Flower.
    Near Keno, local contractors worked with the BLM to restore 
a three mile section of Spencer Creek by placing over 50 log 
structures in the creek to restore its natural habitat and 
increase native fish population.
    I have included photographs of these Title II projects in 
with our written testimony so that you may look them over. The 
BLM Title II program faces a big challenge. Because RAC numbers 
are not staggered, the RACs are expecting 63 vacancies out of 
the 75 positions when members' terms expire in August of 2010.
    The current RAC charters allow for them to continue for an 
additional 120 days. We hope to fill the vacancies before 
December 15th, and are actively recruiting new members.
    In addition to publishing the Federal Register notice, the 
BLM expects the use of the new social media--new to us--to 
generate interests in the significant role that RAC members 
play in restoring and enhancing public lands.
    We want to make sure they understand how important this 
role is so that they will submit their nominations. The BLM has 
enthusiastically implemented the Title II authorities, and we 
look forward to continuing important work in the coming year, 
and I am happy to answer questions. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Roberson follows:]

 Statement of Edwin Roberson, Assistant Director, Renewable Resources 
    and Planning, Bureau of Land Management, U.S. Department of the 
                                Interior

    Thank you for the opportunity to discuss the Bureau of Land 
Management's (BLM) implementation of the Secure Rural Schools and 
Community Self-Determination Act of 2000 (P.L. 106-393) at the mid-
point of its reauthorization by the Emergency Economic Stabilization 
Act of 2008 (P.L. 110-343). The Secure Rural Schools Act applies to 
nearly 2.4 million acres of BLM-managed public lands in 18 counties 
located in western Oregon (generally called the ``O&C''). The BLM 
defers to the U.S. Forest Service on activities accomplished by the 
Forest Service on its lands. I will briefly summarize the unique 
relationship between the Department of the Interior and these 18 
counties and then describe the BLM's successes and challenges in 
implementing the Secure Rural Schools Act.

O&C County Payments
    The Secure Rural Schools Act builds upon the foundation laid in 
1937 with enactment of the Revested Oregon and California Railroad and 
Reconveyed Coos Bay Wagon Road Grant Lands Act (the O&C Lands Act). The 
O&C Lands Act directs the Department of the Interior to manage the O&C 
lands for ``the purpose of providing a permanent source of timber 
supply, protecting watersheds, regulating stream flow, and contributing 
to the economic stability of local communities and industries, and 
providing recreational facilities.'' Under the O&C Lands Act, the 18 
O&C counties receive yearly payments equal to 50 percent of receipts 
from timber harvests on public lands in these counties.
    In the years between 1989 and 1993, income to O&C counties from 
timber harvests dropped significantly from the historic highs 
experienced in the late 1980s due to litigation on threatened and 
endangered species. In response, Congress enacted ``safety net 
payments'' to stabilize income flow to timber-dependent counties during 
this period through the Omnibus Budget Reconciliation Act of 1993 (P.L. 
103-66).
    To make up for the reduction in O&C county payments from decreased 
timber harvests, Congress repealed the ``safety net payments'' and 
enacted the Secure Rural Schools Act in 2000. It set a stable level of 
O&C county payments in each of the subsequent six years. The Act 
provided the O&C counties with the option of receiving a full payment 
amount equal to the average of their three highest timber receipt years 
from 1986 through 1999. In addition, under the Act the counties elect 
the percentage of the payment to be distributed directly to the 
counties (Title I), and the remaining percentage to be allocated 
between Title II projects (administered by the BLM), Title III projects 
(administered by the counties), or returned to the Treasury.
    The payments have been extended twice. The first extension (P.L. 
110-28) was for a one year payment. The second (P.L. 110-343) extended 
payments for 2008 through 2011. As amended by P.L. 110-28, payments are 
a declining percentage of the payments made in previous years. When the 
law sunsets, the payments based on 2012 receipts to the 18 counties in 
western Oregon would revert to the 50 percent share of federal receipts 
from activities on O&C lands.

Title I & Title III--County Payments
    The Secure Rural Schools Act authorities are set out in three 
sections. Title I of the Secure Rural Schools Act replaces receipt-
based county payments and accounts for 80 to 85 percent of the total 
payment. Title III of the Act provides funds for eligible county 
expenditures and accounts for up to 7 percent of the total payment. The 
BLM has only a minor role in implementing Titles I and III of the 
Secure Rural Schools Act.

Title II--RAC Collaboration
    Title II of the Secure Rural Schools Act authorizes up to 15 
percent of the total payment amount each year to fund restoration 
projects on public land in the O&C and on private land if the project 
benefits public land resources such as in watersheds.
    Title II established a structure--Resource Advisory Committees \1\ 
(RACs)--to promote cooperative working relationships among the people 
who use and care about the O&C lands and the federal agencies 
responsible for managing the resources. There is a RAC for each of the 
five BLM administrative districts in western Oregon (Coos Bay, Eugene, 
Medford, Roseburg, and Salem) that cover the 18 O&C counties. Each RAC 
has 15 members representing three interest areas equally: commodity 
interests, non-commodity interests, and local area interests. Current 
and previous RAC appointments have included representatives of state 
and local governments, tribal interests, watershed councils, private 
and nonprofit entities, and landowners. RACs are chartered for two-year 
terms; members are appointed by the Secretary of the Interior and 
provide this community service without compensation.
---------------------------------------------------------------------------
    \1\ The Secure Rural Schools Act Resource Advisory Committees are 
separate and distinct from the BLM's state or regional Resource 
Advisory Councils, which are authorized by the Federal Land Policy and 
Management Act (FLPMA).
---------------------------------------------------------------------------
    The requirement that RACs represent diverse interest groups offers 
the BLM opportunities to engage early and often with individuals 
holding a wide range of opinions on western Oregon resource management. 
Title II allows the BLM to bring local representatives to the table to 
help prioritize funding so it can be spent most effectively. The RACs 
review restoration projects proposed by both external partners and the 
BLM, and screen project proposals to ensure they meet the legislative 
intent of the Secure Rural Schools Act. The RACs then recommend their 
highest priorities for Title II funding to the BLM.

Successes
    Since the Act's reauthorization in 2008, the RACs have recommended 
319 Title II projects out of a total of 470 proposed projects, and the 
BLM has approved more than $14.6 million of Title II funds to implement 
these projects. The RACs are currently reviewing the 272 project 
proposals for FY 2010 and are expected to make recommendations this 
summer. Projects have included hazardous fuels reduction; stream and 
watershed restoration; forest road maintenance and road 
decommissioning; noxious weed eradication; and fish and wildlife 
habitat improvement. These projects also provide job opportunities in 
rural western Oregon counties.
    By working collaboratively with the RACs and incorporating local 
input, the BLM strives to build consensus on natural resource issues. 
No RAC-approved project has been protested, appealed, or litigated. 
Through the RACs, trust and solid working relationships are being 
strengthened between the counties and the BLM, and between very diverse 
interests.
    The following are a few examples of successful Title II projects 
undertaken by the BLM under the Secure Rural Schools Act:
        <bullet>  In Josephine County (BLM Medford District; Medford 
        RAC), the BLM is partnering with The Job Council, a cooperative 
        public association providing workforce resources, to conduct a 
        variety of restoration and land management activities. This 
        cooperative project received Title II funding for the previous 
        two years that resulted in the construction of new trails, 
        removal of noxious weeds, upgrade, and maintenance of existing 
        trailheads, and maintenance of recreation sites. The BLM's 
        partnership with The Job Council provides the agency with work 
        crews to complete projects that enhance the public lands while 
        offering on-the-job experience and forestry education 
        opportunities for local youth ages 16-21. (Attachment 1)
        <bullet>  The BLM is using Title II funding to restore habitat 
        critical for the protection of special status species. In BLM 
        Roseburg District (Roseburg RAC), Title II funds are restoring 
        wetland conditions necessary for the survival of the endangered 
        hairy popcorn flower (Plagiobothrys hirtus). Compacted soil 
        resulting from historic grazing practices, road construction, 
        and inadequate drainage has reduced water flows to the habitat 
        of this endangered plant. This Title II project is restoring 
        the beneficial wetland conditions through willow plantings, 
        placement of log structures in stream channels, installation of 
        erosion matting on high angle banks, and creation of drainage 
        dips in a nearby road. (Attachment 2)
        <bullet>  A Title II project restored a three-mile section of 
        Spencer Creek near Keno, Oregon (BLM Lakeview District; Medford 
        RAC). Over 50 log structures, created from 220 cull logs 
        salvaged from local timber sales, were placed in Spencer Creek 
        to reestablish its original sinuosity, channel complexity, and 
        gravel accumulations. Additionally, the project plans to 
        restore the creek's natural habitat and increase the population 
        and distribution of native fish and amphibians, including the 
        Klamath River redband trout, Klamath small-scale sucker, 
        lamprey, and Pacific giant salamander. (Attachment 3)

Challenges
    The BLM has found its RAC members to be extremely committed to the 
community services they perform. Many RAC members work with multiple 
counties located within RAC boundaries and have done an outstanding job 
balancing diverse interests, while developing cooperative project 
recommendations.
    BLM has experienced some difficulties with RAC vacancies. The law 
does not allow the RACs to meet, review, and recommend project funding 
if vacancies on a RAC panel prevent the establishment of a quorum. 
Vacancies on a RAC, if unfilled, may prevent the RAC from meeting and 
recommending projects to be funded. This, in turn, can prevent the BLM 
from initiating a Title II project on the ground in a timely manner.
    Because RAC member terms are not staggered, the Secure Rural 
Schools RACs are expecting a total of 63 vacancies (out of a total 75 
positions) upon expiration of members' terms in August 2010. The 
current RAC charters (filed in January 2010) provide for 120 days of 
membership continuity, so if members are not appointed by August 15, 
current members will continue to serve on the RACs until December 15, 
2010, or until new members are appointed. Many of these members have 
pledged to remain available for service on the RACs until the law 
sunsets. The BLM is currently working to fill the expected vacancies. 
Given the complexities involved in filling RAC positions, the BLM is 
extending the call for RAC nominations.
Conclusion
    The BLM has enthusiastically implemented the authority given to it 
under Title II. It has enabled the BLM to accomplish on-the-ground 
improvements in land and resource conditions in the O&C Lands and 
promoted economic stability of local communities. The RAC process has 
strengthened working relationships among diverse groups, individuals, 
and federal agencies with the shared goal of improving the condition of 
the O&C lands. The BLM looks forward to continuing this important work 
in the coming year.
    Thank you again for the opportunity to discuss the BLM's 
implementation of the reauthorized Secure Rural Schools Act. I am happy 
to answer any question you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir. This first question is for 
both of you gentlemen. What difficulties have the Forest 
Service and BLM, and the counties, I guess, experienced with 
the new formula outlined in the reauthorization? If you could 
speak a little about those challenges with that new formula.
    Mr. Holtrop. Well, with over 700 counties, and the formula 
has both the number of acres of Federal land in the county, 
there are some complexities, with another factor being the 
income level of each of the counties.
    There are just a lot of details that are associated with 
it. There has also been the fact that there has been the 
transition payments for eight States that have required a 
second level of calculation as well up through 2011, or up 
through 2010.
    Mr. Grijalva. Sir?
    Mr. Roberson. The BLM has really been focused on Title II 
and the money that arrives, and I think that our biggest 
problem is with making sure that we have RAC members that can 
make the decisions, or help us make the decisions on what to 
actually spend and get it spent before the expiration of the 
Act.
    Mr. Grijalva. Let me follow up if I may, Mr. Roberson. In 
terms of staffing the RACs, do you have any recommendations to 
deal with that issue; and would you change the makeup of the 
RACs?
    And you mentioned expediting the approval of nominees. Any 
comments on any one of those or on all of them?
    Mr. Roberson. Yes, Mr. Chairman. We had some challenges 
last year in getting RAC nominations. We had some challenges 
this year. I think we are trying to broaden our outreach and do 
a better job of that.
    Also, these RAC members are reviewed by the county 
commissions, the Governor. They go all the way up through our 
department, and it is similar to what the Ranking Member 
mentioned, that they go all the way to the White House, and so 
there is a time frame involved in that.
    So, one, we have an issue with making sure that we get the 
word out to people that here is an opportunity for you to 
really make a difference, and it is going to be a time--you 
know, our Roseburg RAC, most RACs only meet twice a year, but 
Roseburg meets about six times a year.
    And that is a time commitment for people. So we want them 
to realize that that time commitment is really worthwhile, and 
as I mentioned, none of the RAC-approved projects have been 
litigated or protested.
    So it is a really good formula. We are streamlining our 
approval, our review and approval process, and we do anticipate 
that we will be able to get those 63 new members on board by 
December 15th when the current terms expire.
    Mr. Grijalva. And my question about the makeup of the RACs, 
do you see any need to deal with that, or change it?
    Mr. Roberson. I don't, sir. I think that they do represent 
a broad group of constituents in the area, and so I don't see 
any need.
    Mr. Grijalva. Mr. Holtrop, the timber industry, we all 
know, continues to struggle during this recession, and it is 
unlikely that it will ever return to those pre-1990 levels. Do 
you have any thoughts on changing the formula to account for 
factors such as number of conservation acres, or level of 
wildfire preparedness, as part of the formula?
    Mr. Holtrop. I think there are a lot of different 
approaches that could be considered and taken. I think that 
those are a couple of suggestions, and that I would certainly 
be willing to continue to work with you and other members of 
the Committee to see how that would play out, in terms of the 
financial aspects of it.
    There has been quite a bit of work done in the past in 
looking for ways to secure what we all understand and recognize 
as a need for some long-term certainty in how this funding is 
going to occur.
    Mr. Grijalva. I appreciate that. Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman. To both of you, Mr. 
Roberson, and Mr. Holtrop, I appreciate you being here. I 
appreciate the services that you are giving to this country in 
your various areas.
    I will still criticize your agencies, but I appreciate what 
you two are doing in those agencies specifically. Mr. Holtrop, 
let me come back to you and ask the same question that the 
Chairman did of Mr. Roberson, dealing with the Resource 
Advisory Councils.
    Who is responsible for appointing the people to those RACs?
    Mr. Holtrop. The appointments are vetted at the Department 
level in the White House.
    Mr. Bishop. So we have been hearing for the past couple of 
years that appointments to RACs are taking an unusual amount of 
time, and in some cases an unacceptable amount of time.
    And we are also hearing that there are millions of dollars 
for Title II projects that are still sitting in accounts 
because the Administration, and the Secretary of Agriculture, 
are taking so long to clear appointments. Has the appointment 
process for RACs slowed over the past two years?
    Mr. Holtrop. Well, when the Secure Rural Schools Act was 
reauthorized in 2008, there was a significant increase in the 
number of RACs that were formed at that time, and so I think 
that there was a backlog that formed immediately with the 
reauthorization.
    Many more counties chose to become involved in the Secure 
Rural Schools Program, and so there was a large number of new 
appointments that needed to occur, and it has taken time.
    It has taken more time than any of us wished it had, but I 
do think as Mr. Roberson mentioned, I think that we are looking 
for ways to streamline, and I think we have made some progress, 
and we have every expectation that we will have all of our 
committees filled before the end of the year as well.
    Mr. Bishop. So if I was a donor to the RAC would I have a 
better or less chance of getting appointed? That is not a 
legitimate question, and even if I did ask that one, I wouldn't 
expect an answer from you.
    Let me go to something that you can answer, which deals 
with roads. Many of the witnesses on the second community panel 
will testify to the importance of road construction and road 
improvements in the communities, especially given the fact with 
how much forest land is in their areas.
    Do you believe that the double-digit budget cuts the 
President recommended in FY 11 for road construction and road 
maintenance will have an impact on these communities, and if 
so, will it be detrimental or positive?
    Mr. Holtrop. Well, the President's budget, of course, is 
weighing all of the various constraints, and we have a 
constrained budget, and many competing interests. The 
President's budget includes funds in several different areas 
for funding for roads, and we do recognize the importance of 
roads, and road maintenance.
    In some cases when it is time to decommission roads, those 
funds need to be made available to accomplish that so that we 
have a correctly-sized road system and the resources to 
maintain it. That is what we are working toward with this 
budget, and Title II funding helps us with that as well.
    Mr. Bishop. So let me ask you about last year, 2009. How 
many new roads or how many new miles, how many miles of new 
roads did the Forest Service actually construct in '09?
    Mr. Holtrop. I will be happy to get back to you with that 
figure. I don't have the figure off the top of my head, but the 
number of new miles of road constructed is a fairly small 
number. It is probably less than a hundred miles.
    Mr. Bishop. Is that the best ballpark that you can give me?
    Mr. Holtrop. For right now that is the best ballpark that I 
can give you, and I can give you a precise number very shortly.
    Mr. Bishop. Let me say that if you are in that same 
ballpark, if you go just to the infield, you will be closer to 
the actual number that you did construct last year. I would 
appreciate you getting that number.
    Mr. Holtrop. I will get it for you.
    Mr. Bishop. I understand the number is actually 16 miles, 
which would be under a hundred. I appreciate your answers, and 
Mr. Chairman, I will yield back.
    Mr. Grijalva. Mr. Chairman, any questions?
    Mr. Rahall. No questions.
    Mr. Grijalva. Mr. Lujan.
    Mr. Lujan. Mr. Chairman, thank you very much. Mr. Roberson, 
as revenues are being collected on BLM land, especially 
compared to the way that resources are shared with States for 
rural education with the United States Forest Service, why is 
it that we don't see more revenue being shared from oil and 
gas, or from grazing, with those States that have a lot of BLM 
land where there is revenue coming in?
    Mr. Roberson. There is sharing, sir, through the royalty 
disposition that we have, similar to the O&C Act. There are 
half of the royalties that go back to the State, and some of 
the original trust lands in the State were set aside for the 
State from the Federal Government so that they could support 
their schools.
    And part of the grazing fee goes back in as well, but I 
could get back to you on the exact numbers so we could talk 
about how much money goes back into the various States from our 
oil and gas royalties and from grazing.
    Mr. Lujan. Is there a possibility that we might be able to 
establish SRS as a payment program like the United States 
Forest Service has, and where the BLM apparently does not have 
one, to accumulate funds like the Forest Service?
    Mr. Roberson. That is beyond my--I really can't answer that 
question. I am sorry, Mr. Lujan. I mean, we can get back to 
that.
    Mr. Lujan. That is fine. Mr. Chairman, through our deputy 
chief, Mr. Holtrop, thank you again for being here. There is a 
question that I have with some infrastructure that we have 
within our forest lands in New Mexico that actually predate the 
United States Forest Service that typically are not seen maybe 
as part of the United States Forest Service, and they are 
called acequias.
    There is a ditch, a waterway system, and an old aqueduct 
system that provide sustainability and subsistence for many of 
our northern communities. Are there opportunities or programs 
that we might be able to engage in to help maintain the 
integrity of these acequias working with those local 
communities who depend on these areas, and to even make sure 
that as we look at these programs, even though not directly 
related to the education fund, they play a key part in 
education in this part of the country, and especially in our 
State and these prominently Hispanic communities?
    Mr. Holtrop. I am aware of the importance of these 
facilities, and I assure you that we would like to continue to 
work with you, both at the local level and if there are things 
that I can do here to help pursue ways to make sure that we are 
adequately accounting for those, I would be happy to do so.
    Mr. Lujan. Thank you, Mr. Chairman, and to the Chief, thank 
you very much. I will take you up on that, and we will be 
getting in touch soon. With that, Mr. Chairman, I yield back 
the balance of my time.
    Mr. Grijalva. Thank you, Mr. Lujan. Mr. DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman, and thanks for 
convening this very important hearing, particularly important 
for my State and my district. Mr. Holtrop, you already 
addressed the issue in part, but I am concerned about the RAC 
appointment process, and think that it really needs to be 
somehow streamlined or simplified, because we are now going to 
be looking at--what, there are 124 now?
    Mr. Holtrop. 118.
    Mr. DeFazio. 118, and they all have terms, and so they are 
all going to be coming up for reappointment, and so isn't there 
the prospect that you are going to get overloaded again? I 
mean, vetting everyone of--every person for 118 RACs is a 
tremendous task.
    Is there a way to simplify the process, have longer terms, 
have staggered terms, do something so that we would always be 
assured of having a quorum on all the RACs, because we had 
quite a few RACs recently that couldn't operate because they 
didn't have quorums.
    Mr. Holtrop. I think those are both excellent ideas, 
staggering, and having longer terms. I do think that we have 
learned some things through the vetting process with the volume 
of business that we had here in the last couple of years, that 
we have learned some ways to be more efficient, and we would 
continue to utilize that as well. So I continue to look forward 
to ways, and to find ways to do that.
    Mr. DeFazio. Well, we would be pleased to have some 
recommendations, but in absence of recommendations, we will 
have to come up with some, because I think the process needs to 
be improved. So if the Agency has recommendations, and/or 
Interior, that would be great.
    I am going to read you both a quote from our ultimate boss, 
and that would be President Obama. ``What I would like to do is 
convene meetings between Federal Agencies, local and State 
governments, and interested parties, and start hammering out a 
long-term solution that acknowledges the revenue issues that 
are at stake for local government.''
    That is in reference to the Safe and Secure County Rural 
Schools Act. Federal Agencies have been meeting and discussing 
how we are going to extend this, since we are facing the 
extinction of the program in the very near future.
    Can you tell me about that, and what kind of process is 
going on downtown, and what high-level meetings are going on, 
and what kind of meetings are you having other than people who 
asked for appointments with local and State governments and 
interested parties?
    Mr. Holtrop. There certainly have been conversations and 
recognition that the program concludes in a couple of more 
years.
    Mr. DeFazio. A year from October actually.
    Mr. Holtrop. Right. And that is the reason that I said a 
couple of more years, is that the funding would continue, and 
the funding comes the year after. So there will still be some 
Title II projects the following fiscal year.
    Mr. DeFazio. Yes, but we are not just talking Title II 
here. We are talking about a small percentage of the program, 
and Title III, which is a small percentage of the program. We 
are talking about the payments to counties and school 
districts.
    And I have counties that were looking at the last 
expiration date, before we extended the program, which had 
consulted with attorneys on dissolution. We have not done 
anything like that since the Great Depression.
    We are in a bit of a Great Recession, but I would think 
that other than conversations and recognition, I am just not 
aware--and I have discussed this personally with the President, 
and I have discussed it with both Secretaries--I am pretty 
frustrated.
    I don't feel that there is a high-level focus and/or sense 
of urgency, and I know that the OMB people carefully scrub all 
your testimony and don't allow you to refer to anything where 
we might spend money to help people, or school districts, or 
have public services, or law enforcement, or any of those 
things.
    But it just seems to me that the two agencies, that I just 
don't hear anything going on, or see anything going on, and I 
would like to know how we can get something moving here, in 
terms of a meaningful dialogue and discussion.
    There are grassroots groups organizing, and that is great, 
but what is going on in this Administration? I can read you a 
number of other quotes from the President where he promised a 
long-term solution, stability, and all those things, and I will 
certainly be holding him to account, and he will be held to 
account in the next election cycle.
    But I would hope that we wouldn't have to get to that 
point, and that he would want to deliver on these promises, and 
so there has been no direction from the president that you are 
aware of, or the Secretaries have not discussed putting 
together ongoing working groups at a high level, or anything 
like that?
    Mr. Holtrop. Well, I am aware of the quote, and I am aware 
of the interest in doing so, and I do believe there is both the 
responsibility at our level to be looking at ways to come up 
with approaches that are going to help us deal with what is 
obviously a significant transition that is going to occur when 
this authorization ends.
    Mr. DeFazio. Well, it is not a transition. It is a collapse 
actually. It is not a transition. For many of these counties in 
my State, there is no alternative.
    We are Constitutionally limited in our State in raising 
property taxes. So they don't have that option, and basically 
some of our counties won't even be able to keep their jails. I 
mean, that is more than a transition.
    Mr. Holtrop. Yes, sir.
    Mr. DeFazio. How about over in Interior?
    Mr. Roberson. I think that Mr. Holtrop expressed it well. I 
don't have much to add. I know that we are in the process of 
formulating the 2012 budget, and there are negotiations, 
discussions, about it in that process, and when the President 
is ready to present that, hopefully that will address your 
concern.
    Mr. DeFazio. Well, that will be great, and I would just 
like to know that those discussions are meaningfully going on, 
and there is meaningful consideration, and there will be a 
proposal.
    But I will have to, I guess, follow up with some higher 
level folks and see if we can get a more transparent robust 
process going here to be sure that we don't get or are 
forgotten in the crush at OMB to eradicate as many programs as 
they can. So, thank you, and thank you, Mr. Chairman.
    Mr. Grijalva. Thank you, and I have no further questions, 
unless members of the Committee have any followup.
    [No response.]
    Mr. Grijalva. Thank you, gentlemen, and let me invite the 
next panel up.
    Mr. Lujan. Mr. Chairman, this is Mr. Lujan. If I could just 
make reference to a letter. I know that Mr. DeFazio co-authored 
it, and I know that there were many of us that did sign on, and 
it did go to the President, talking about the importance of 
these programs.
    And again just to reinforce what Mr. DeFazio is saying, 
these are school districts, and when we talk about States that 
are not receiving any help with the race to the top, my State 
is one of those.
    And these are programs that will be devastated, and so when 
we talk about education, and money that is disappearing, a 
State like New Mexico, where we have numbers and problems that 
we are already exceeding, and compounded by this program 
disappearing, and not being in line right now for race to the 
top, again with the second round.
    The President has clearly said that the path out of poverty 
is education, and these are people who have sacrificed so very 
much so that the rest of the country, and the rest of the 
world, can visit some of the most beautiful lands that exist. 
There is a way for us to make sure that we put people on a path 
to success, and this is one of those programs that will help 
achieve that. So, thank you very much, Mr. Chairman.
    Mr. Grijalva. Thank you, sir, and gentlemen, I appreciate 
it very much, and let me invite the next panel.
    [Pause.]
    Mr. Grijalva. Let me welcome our witnesses. Thank you very 
much for being at the hearing, and those of you who had to 
travel long distances, we are particularly appreciative of all 
of you for being here. Let me now ask my colleague, Mr. Lujan, 
for introduction of one of the witnesses. Sir.
    Mr. Lujan. Mr. Chairman, thank you very much. Chairman 
Grijalva, today I have the pleasure of introducing one of my 
constituents and a friend from Chimayo, New Mexico, County 
Commissioner Elias Coriz of Rio Arriba County.
    Commissioner Coriz has served on the Rio Arriba County 
Commission for over the past decade in a number of capacities. 
They give him a full range and unique understanding of the 
implementation of this important program for rural New Mexico 
communities.
    For the past 7-1/2 years, Elias has served as a County 
Commissioner, with four of those years serving as Chairman. He 
served as a member of the Espanola School Board, and has a 
sound perspective into both the funding of rural schools and 
the implementation of these funds.
    As a trustee of the Jemez Mountains Electric Cooperative, 
and as a member of the county who represents our tribes, our 
stockmen, our land grants, and our executives alike, 
Commissioner Coriz sees these issues in our community in a 
unique way.
    New Mexico's schools have concerns unique to our State, 
with diverse student populations, abundant Federal lands, 
numerous rural counties, as well as limited Internet access. 
There are many challenges facing our students.
    While many overcome these difficulties, I am proud to have 
Commissioner Coriz here to share his perspective and to give us 
his insight and thoughts on what we can do to make education 
more accessible for these students, and students all across 
America.
    Thank you for attending our hearing today, Commissioner 
Coriz, and I look forward to hearing your testimony. With that, 
Mr. Chairman, I yield back my time.
    Mr. Grijalva. Thank you, sir. Let me begin with Mr. Paul 
Pearce, National Association of Counties. County Commissioner, 
the floor is yours.

  STATEMENT OF PAUL PEARCE, NATIONAL ASSOCIATION OF COUNTIES, 
                     STEVENSON, WASHINGTON

    Mr. Pearce. Thank you, Mr. Chairman. Thank you, Chairman 
Rahall, and thank you very much, Chairman Grijalva, and Ranking 
Member Bishop, who has had to leave, for this opportunity for 
me to testify on behalf of the National Association of 
Counties.
    Seven hundred twenty-nine counties, or 24 percent of the 
counties in this country, have national forest lands as part of 
their land base, some of them up to 90 percent. The 154 
national forests cover an area of 193 million acres.
    These counties are responsible for the infrastructure, 
schools, roads, and other infrastructure to maintain those 
counties that are the host of those particular forests. I think 
what is important to say is Gifford Pinchot, the first Forest 
Service Chief, said those forests were created for the greatest 
good of the greatest number of folks for the longest period.
    In 1891, Congress created forest reserve authority through 
the General Revision Act, and by 1905, those reserves were more 
than 80 million acres, all of which came from counties.
    President Roosevelt remade the United States Bureau of 
Forestry into the USDA Forest Service, and Gifford Pinchot was 
the first chief. It began a three-year process, which resulted 
in Congress transferring all forest reserves to the new Forest 
Service.
    The 1908 Act also concluded a conversation between the 
counties, the Congress, and the Administration. The contract 
fulfilled a second promise from Gifford Pinchot, who said that 
no community would suffer from hosting these lands.
    And I don't think we can say that that is true necessarily 
any longer. The contract was for revenue sharing, 25 percent of 
all revenue generated on these lands. It clearly made sense at 
that time because we were extracting resources for a growing 
Nation, and it was in the best interests of all.
    The contract worked well for nearly a century and into the 
late 1980s, when court decisions, Endangered Species listings, 
like the spotted owl, and a general change in the priorities of 
the Nation dramatically reduced timber and other extraction.
    In 1994, Congress created a 10-year program called Owl 
Guarantee Monies for those counties that were hardest hit. In 
2000, Congress passed the Secure Rural Schools Act, three years 
prior to the end of the Owl Guarantee Monies, which authorized 
payments through 2006.
    These payments were a lifesaver for forest counties, and 
again in 2007, there was a one-year reauthorization, and then 
in 2008, the four-year reauthorization. That reauthorization 
could not have come at a better time, and it clearly recognized 
the ongoing contract between these forest counties, who host 
these forests, and the Federal Government, and it has been a 
tremendous success.
    The Act has three titles. Title I is payment for county 
roads and schools. Each State determines the division based on 
the 1908 law. The money equates almost exclusively in these 
counties and schools as jobs.
    There are county road employees, and there are school 
employees, and without this symbiotic relationship, children 
will not be able to get to school. They may not even have 
schools to get to or teachers to instruct them.
    I mentioned how important the 2008 reauthorization was. 
When that came in the fall of 2008, it was at the same time 
that the economy was pretty much in free fall, as Congress 
recognized.
    And according to Dr. Eylers' economic analysis, and that 
report is attached to my testimony, these payments in these 700 
counties have an impact to the tune of $1.3 billion in sales, 
$188 million in realized tax revenues at both the State, local, 
and Federal level, and most importantly represent 11,000 jobs.
    Just consider for a moment had it failed, and had we not 
gotten reauthorization at the same time that the economic 
downturn came. The loss of one family wage job in a county 
often means that they have to move.
    That means that you lose the spouse's employment, and the 
children are pulled out of the school, which just creates a 
downward spiral. So on behalf of NACO, we want to thank the 
Congress for the reauthorization, which resulted in so many 
positive economic benefits to our communities and schools, 
these rural communities and schools.
    The century long contract has served its purpose well, 
keeping these forest counties and schools vibrant and 
successful. Others will talk about the RACs. The RACs are an 
absolute success, and will be even more so once we get them 
fully outfitted with folks.
    They are the most successful collaborative nationwide 
effort ever seen within the Forest Service, and I think they 
should be used for more than just resource advisory. They 
should be there collaborating on all things.
    Title III, which is money to the counties specifically for 
county services that result in services on the forests from the 
county, in the original Act, there was a number of services, 
including emergency services, fire planning, community service 
work camps, easement purchases, and so on.
    The new Act actually did away with all of those, except for 
the emergency services, and community wildfire planning and 
implementation. In terms of search and rescue, in my county 
alone, which we have 88 percent of our county as the Gifford 
Pinchot National Forest, and Mount St. Helens, the Mount St. 
Helens National Monument, and 80,000 acres of the Columbia 
Gorge Scenic Area, we have had two searches this year that were 
in the hundreds of thousands of dollars.
    One of those searches was a gentleman who fell into a 
crater at Mount St. Helens, and it cost $150,000; and another 
one was a young lady who was lost near the Columbia Gorge, and 
sadly it was a recovery. It was a two-week search, and it was a 
$550,000 bill to the State, local, and Federal folks.
    Mr. Grijalva. Commissioner, if you could wrap it up.
    Mr. Pearce. Yes. The last two things that I wanted to 
mention is that the Forest County Payments Committee, which met 
and made a report in 1993, was made up of members appointed by 
Congress, including Mark Evans, Dr. Tim Creal, and Bob Douglas 
from the Schools Coalition, Doug Roberts from the County 
Commission, and Elizabeth Estill, who was a Deputy Chief of the 
USDA Forest Service.
    And they made a recommendation, which we will put into the 
testimony, but it talks about a 10-year reauthorization. It 
talks about establishing minimum payment levels, and that this 
program should continue. That was a report to Congress. 
Finally, I just want to state----
    Mr. Grijalva. Let me say that the whole statement is in the 
record, and we are asking people to try to summarize their 
opinions in five minutes, but please.
    Mr. Pearce. Thank you. I apologize.
    Mr. Grijalva. There is no need to apologize.
    Mr. Pearce. As to Mr. Bishop's concern with reference to 
PILT, I am the Chair of the NACO Federal Payment Subcommittee 
of the Public Lands Steering Committee, and I want to affirm to 
him and everyone else that we are committed to the continued 
full funding of the PILT program nationally, and it is one of 
our primary platforms. Thank you very much.
    [The prepared statement of Mr. Pearce follows:]

Statement of The Honorable Paul Pearce, Commissioner, Skamania County, 
  Washington, on behalf of the National Association of Counties (NACo)

    On behalf of the National Association of Counties (NACo) I wish to 
thank Chairman Rahall, Ranking Member Hastings, Subcommittee Chair 
Grijalva, Subcommittee Ranking Member Bishop, and members of the House 
Natural Resources Committee for this opportunity to discuss the 
benefits and successes of the Secure Rural School and Communities Self 
Determination Act.
    Seven hundred twenty nine (729) or 24%, of the nation's three 
thousand sixty eight (3068) counties contain national forests, some 
equaling up to 90% of their land mass. The 154 National Forests cover 
an area of 193 million acres across this country. These counties are 
responsible for the infrastructure . . .. Roads, Schools, and Emergency 
services . . . that allow those forests to exist for . . . .. as 
Gifford Pinchot, the first Forest Service Chief, said ``The greatest 
good, of the greatest number, for the long run.''
    In 1891 the Congress created Forest Reserve authority through the 
General Revision Act. By 1905 those reserves had grown to more than 80 
million acres. President Roosevelt remade the U.S. Bureau of Forestry 
into the USDA Forest Service with Gifford Pinchot as the first chief 
forester. That began a three year process which resulted in Congress 
transferring all forest reserves to the new Forest Service.
    The 1908 Act also concluded the conversation between the Counties 
containing these forests, Congress and the Administration. The contract 
fulfilled the promise of Gifford Pinchot who said that no community 
would suffer for hosting these lands. The contract was for revenue 
sharing . . . . the first in the nation .. of 25% of all revenues 
generated on these lands. This clearly made sense at the time as the 
growing nation extracted renewable resources for the good of all.
    The contract worked well for nearly a century . . . into the late 
1980's when court decisions, Endangered Species Listings, such as the 
spotted owl, and a general change in the priorities of the nation 
dramatically reduced timber and other extraction. In 1992 congress 
created Owl Guarantee monies for those counties hardest hit by the 
spotted owl.
    In 2000 Congress passed the Secure Rural School and Communities 
Self Determination Act which authorized payments through 2006. These 
payments were a life saver for our forest counties. In 2007 Congress 
reauthorized for one year and then in 2008 reauthorized for an 
additional four years through 2011. This reauthorization could not have 
come at a more appropriate time and clearly recognized the ongoing 
contract between these forest counties and the Federal government--and 
what a tremendous success it has been.
    The Act has three Titles, each of which has clearly defined 
responsibilities.
    Title I is payments for county roads and schools. Each state 
determines the division of these funds based on the original 1908 
revenue sharing law. This money equates almost exclusively in these 
communities to jobs--county road and school employees. Without this 
symbiotic relationship our children would not be able to get to school, 
often over large distances, nor would they necessarily have schools to 
attend or teachers to instruct them.
    The gateway communities to our national forests would simply not 
exist without this infrastructure. These County roads are how the vast 
population that recreates on these millions of acres travel to and from 
them.
    I mentioned how this reauthorization could not have come at a 
better time. Reauthorization in the fall of 2008 came at the same time 
as the economy was beginning to fall apart. According to Dr. Eylers' 
economic analysis (report attached) these payments have an impact to 
the tune of 1.3 billion in sales, 188 million in realized tax revenue 
and most importantly represent 11,000 jobs.
    Consider for a moment that this loss had occurred at the same time 
as the full force of the recession hit. This is especially true, in 
these mostly rural communities where the loss of one family wage job 
often results in the entire family having to leave the community to 
find work,--the spouse quits their job and their children are withdrawn 
from school, lowering enrollment, causing even greater job loss.
    We wish to thank Congress for the reauthorization which has 
resulted in so much positive economic benefit to our communities and 
schools. This century long contract has served its purpose well keeping 
these forest counties and schools vibrant and successful.
    Title II of the Act is money specifically to be used for projects 
on and for the forest itself utilizing one of the greatest successes of 
this entire act--the resource advisory committees or as they are known 
RAC's. Others will speak at length to the RAC's. Suffice it to say that 
the RAC's are the most successful collaborative nationwide effort ever 
seen within the forest system.
    Finally there is Title III which is money to be used by the county 
for specific purposes other than roads.
    In the original act these purposes included emergency services on 
the forest, fire planning, community service work camps, easement 
purchases, forest related after school programs and planning efforts to 
reduce or mitigate the impact of development on adjacent Federal lands.
    The 2008 reauthorization removed all categories except emergency 
services, as well as community wildfire planning and implementation.
    In terms of search and rescue I will speak to some actual cases in 
my county to demonstrate how these incidents can become very expensive. 
Covering 88% of Skamania County is the Gifford Pinchot National Forest 
including the Mt St Helens National Monument. Added to that is the 
80,000 acres of the Columbia Gorge Scenic Area. Search and rescue 
events are frequent. Our volunteer searchers are not reimbursed except 
for their mileage. Yet our average search costs are in the several 
thousand dollar range for those searches lasting just a few days and 
not requiring any aircraft. That being said, this year alone we have 
had two searches in the hundreds of thousands.
    The first was a hiker who fell into the Mount St Helens crater. The 
total local, state and federal cost reached over $150,000 dollars. The 
other involved a two week search for a young woman which cost local, 
state and federal taxpayers $550,000. Sadly; both cases ended up being 
recovery's rather than rescues. Without Title III and assistance from 
both state and federal resources our counties could not afford these 
costs.
    Finally, I want to tell you about a program in my county called 
Forest Youth Success which we funded from Title III under the 2000 Act 
and now fund through Title II. This program puts 40 high school age 
kids to work on crews in the forest on restoration projects during the 
summer. Recently WSU did a survey and study of the past participants of 
the program and found some very interesting initial data. Some of the 
reported outcomes:
        <bullet>  100% said FYS increased their life skills such as 
        team work and leadership.
        <bullet>  97% said they learned important workplace skills such 
        as punctuality and responsibility.
        <bullet>  92% said they increased their use of financial 
        resources.
        <bullet>  69% said FYS influenced the shaping of their career 
        choices.
        <bullet>  47% said FYS shaped their college degree goals.
    We believe this proves the value of connecting our kids to the 
forest that plays such a major role in their lives.
    Thank you once again for the opportunity to speak about the success 
of the Secure Rural Schools and Communities Self Determination Act.

    [NOTE: The attachment has been retained in the Committee's official 
files.]
                                 ______
                                 
    Mr. Grijalva. Thank you, and the Ranking Member of the Full 
Committee, Mr. Hastings, has a statement, a comment, and since 
he yielded Commissioner Pearce two minutes, you have about 60 
seconds left.

 STATEMENT OF THE HONORABLE DOC HASTINGS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Hastings. That does not quite add up. Thank you, Mr. 
Chairman, and thank you for the courtesy of allowing me to be 
here, and I think it is only fitting that I follow one of my 
constituents in his testimony.
    More than a century ago, the Federal Government began 
setting aside large sections of land in what was the beginning 
of our National Forest System. Realizing that county tax bases 
would be affected by this action, Congress allowed these 
communities to share in revenue produced from the Federal 
forests as compensation.
    This arrangement worked well for counties and the Federal 
Government for many years. However, in the early 1990s, timber 
harvests in the Northwest began to suffer as a result of the 
Endangered Species Act lawsuits brought forward by groups 
opposed to Federal timber sales.
    In an attempt to resolve this issue, the Clinton 
Administration brokered the Northwest Forest Plan in 1994. This 
plan called for setting aside 80 percent of the Federal forests 
in the Northwest, and allowed for some timber to continue to be 
harvested.
    Even with the Northwest Forest Plan, environmental groups 
continued to file lawsuit after lawsuit to further limit 
Federal harvest levels. As the area to harvest shrank, so did 
the economy that surrounded it.
    Countless mills closed, and thousands of hardworking men 
and women lost their jobs. Counties that are impacted by the 
national forest land were left with no compensation for their 
eroded tax base.
    County Commissioner Pearce from Skamania County in my 
district is here, as I mentioned, and has testified that over 
80 percent of the land in Skamania County is publicly owned, 
and only two percent of their land is taxed at full value.
    With declining timber receipts, students would have been 
faced with severe reductions in school services, including 
losing dozens of teachers, shuttering school buildings, and 
cutbacks in classes and extracurricular offerings.
    In 2000, Congress recognized that many counties were faced 
with serious declines in their timber receipts, and passed the 
Secure Rural Schools and Communities Self-Determination Act.
    This law was a recognition by Congress of the commitment 
made by the Federal Government to these counties at the outset 
of the National Forest System. The Secure Rural Schools Act 
payments have made the difference for many counties that would 
otherwise not be able to provide essential services for their 
residents and quality education for their students.
    The current authorization for this program expires at the 
end of Fiscal Year 2011, and as that day draws closer, we must 
determine how to address the future of these payments. And with 
that, Mr. Chairman, thank you again for your courtesy, and I 
want to thank Commissioner Pearce for being here.
    Mr. Grijalva. Thank you, sir. Mr. Kildee, let me extend the 
courtesy. Do you have any comments?
    Mr. Kildee. Not at this time, Mr. Chairman. Thank you very 
much.
    Mr. Grijalva. Thank you. Let me now turn to Ms. Groseclose, 
a Spanish teacher, Pocahontas County, introduced by the 
Chairman of the Full Committee. Welcome, and I look forward to 
your comments.

 STATEMENT OF SHIRLENE GROSECLOSE, SPANISH TEACHER, POCAHONTAS 
                COUNTY, MARLINTON, WEST VIRGINIA

    Ms. Groseclose. Chairman Grijalva, Ranking Member Bishop, 
and members of the Committee, friends and family, good morning, 
and buenos dias. I am here on behalf of this coalition to give 
you an insight into my life as a teacher in a small county in 
Pocahontas County in West Virginia, the most beautiful county 
in the world, which has 62 percent State or Federally owned 
land.
    I reside there with my husband, Jesse, our pets, our cows; 
and I have the insight into what it would mean or what it means 
to have this money for our teachers and about 1,300 students 
that receive a consistent and more enriching education because 
of SRS.
    One teaching position also equals about two personnel 
positions, and so I am also here to defend them and their job, 
because it is very important. It is very important that you 
also know that the educational system is the second largest 
employer in our county, which is a low socioeconomic area.
    It is second only to the Snowshoe Ski Resort, and that is a 
seasonal employment. I teach at Marlinton Middle School and 
Green Bank Elementary-Middle School, and travel 45 minutes each 
day.
    I teach Spanish exploratory to about 130 fifth and sixth 
grade students and Spanish for high school credit to 7th and 
8th grade students.
    Since students are required two credits in Spanish to 
graduate, a high school teacher, who is very overwhelmed 
already, can concentrate on teaching more high-level Spanish. 
Colleges expect students to have at least three credits to be 
competitive. I know this because students were asked, a former 
student of mine was asked, by an elite college why she had not 
taken three credits of a foreign language and, of course, she 
had to reply that at that moment she had taken French, and 
French had been eliminated, and she was not able to finish that 
credit.
    Thank goodness for SRS. We are able to have the funding to 
at least have a Spanish program. That allows me to have a more 
flexible schedule so that I can service those students for 45 
minutes each day, each class. We all know how important a 
foreign language is to our country.
    Twenty percent of our revenues comes from Federal funding. 
We have about 312,000 acres of land, with no tax revenues and a 
decreased harvest. This will likely not change.
    SRS directly allowed Green Bank's School to keep their 
technology integration specialist. We have in Green Bank the 
NRA, or the National Radio Astronomy Observatory. Therefore, we 
cannot use wireless, and our technology integration specialist 
is a woman who helps those students do all their research, and 
the school would be crippled without her.
    It also allowed for two first, second, and third grades so 
that teachers can be more attentive to the needs of the little 
ones. Just as impactful, they were permitted to keep their 
music program at least 30 minutes each day for a class, and she 
also enriches the curriculum with guitar classes. That was 
threatened a few years ago.
    They are also able to keep an aide known to my husband as 
Old Mean Aida, who reaches as many students today as she can 
and supplements their IEP, or individualized education plan, 
since we lost our special education teacher also a few years 
ago.
    Again, SRS is the heart of our education. People come to 
our town in search of small time life, and what we have to 
offer is the peace of mind, the fresh air, the outdoor 
lifestyle.
    But they also should have the expectation that we are 
giving their children a competitive education, and this should 
be met even if we are a rural area. It is the only way that we 
will ever overcome this socioeconomic challenge.
    SRS provides funds to the board of education so that they 
can pay for buses for community-based learning experience, such 
as an archeology dig for science class, and are able to bus my 
students to the airport to take them to Costa Rica. How 
exciting is that?
    Global exposure and awareness is the key in our curriculum. 
Nine other positions that teach at least a thousand students 
are sustained by SRS. This means that 10 families as you have 
said are living, playing, and spending their tax dollars in our 
county.
    The bottom line is SRS funding is responsible for almost 
all enrichment opportunities offered to our students, and it is 
enrichment that creates a competitive education for our kids.
    Now, yes, core subjects are also important, and teachers 
who teach core subjects would also lose their jobs. People 
should be able to come to our county knowing that they are not 
giving up the type of lifestyle that they should be able to 
have, and that we are giving their children a competitive 
education.
    I am not your typical West Virginian, but I love Pocahontas 
County, and I love sharing my knowledge and my culture with 
those students. There are students there that have such great 
potential that they may be one of you some day.
    And we need to make sure that those students can get there 
by giving them the best of us. I believe in finding solutions 
and that is why I am here today. Thank you very much for your 
consideration.
    [The prepared statement of Ms. Groseclose follows:]

          Statement of Shirlene Groseclose, Spanish Teacher, 
              Pocahontas County, Marlinton, West Virginia

    Chairman Grijalva, Ranking member Bishop and members of the 
Committee, good Morning. My name is Shirlene E. Groseclose. I reside in 
Beautiful Pocahontas County, West Virginia, 62% of which is federally 
or state-owned land. I personally do not mind since this is what we 
wanted to live in, a peaceful rural setting where we can breathe fresh 
air and climb the rolling hills of the farm lands, fish the wooded 
creeks and hike the pristine trails. This is where we wish to raise our 
children someday. I live on a farm with my husband of ten years, our 
pets and our beef cattle. I've been asked here today to give you 
insight into my life as a teacher in my county, a county that depends 
of the forestry money to employ about 10 teaching positions and which 
would suffer immensely without that support. I can't say I am an expert 
on the matter. I am just a teacher who knows what half a million 
dollars means to me, my colleagues and our students. It means ten of us 
have a job and that a little over 1300 students can enjoy a more 
consistent and effective education. One teacher position salary is 
equivalent to two service personnel positions. They are also why I am 
here today. Our school system is the second largest employer in our 
county after Snowshoe Mountain Ski Resort.
    I teach Spanish exploratory to 5th and 6th grade and Spanish for a 
high school credit to 7th and 8th grade at Marlinton Middle School and 
Green Bank Elementary Middle School. I travel 45 minutes between 
schools every day. I hold one of the most hectic schedules of any 
teacher in the county. I once taught up to ten different classes in a 
term and have been known to fill in and teach careers, keyboarding and 
anything else that is needed, thus sacrificing the length of time I 
teach my own classes. When I began my position, at one school I taught 
8th grade Spanish for \1/2\ an hour, at the students lunch time, which 
they didn't care for, and taught all these other fillers for 1 \1/2\ 
hour periods. I explained to my principal how detrimental this schedule 
was to my students. It is already a great challenge to convince the 
students of why they need a foreign language and to change their 
stereotyping inclinations predominant in the county. After much hassle, 
he did everything within his power to ensure I taught what I should be 
teaching, Spanish. Why is this important, because it demonstrates how 
stretched out we already are and how SRS funding allows for better 
scheduling. Having enough staff to cover other needs, I can enjoy a 
better schedule that allows for me to teach only Spanish for at least 
45 minutes every day in both schools.
    The high school Spanish teacher depends on me to send at least 30 
students to the high school with one credit under their belt. This 
lowers the demand for Spanish 1 at the high school and allows her to 
focus more on levels 2 and up. She is still greatly overloaded in class 
size as she is the only foreign language teacher at the high school. 
French was cut from our program a few years back to lack of funds. 
Students are also being offered a minimum of Advanced Placement 
courses. These courses allow students to graduate with a college 
credit. We, of course, need AP Spanish but thank goodness for SRS so we 
are able to teach Spanish at all. We do not want our students at a 
disadvantage when competing for college and one student I personally 
know was asked by an elite college she desired to enter why she only 
taken two credits in foreign language. She answered that that is what 
she was able to take since the French program had been eliminated from 
her school. Without Spanish our students would be in a real hurt when 
applying for college.
    The Technology Integration Specialist (TIS) system at Green Bank 
Elementary school is a vital part of the education program and without 
proper funding 280 students would be without it. Because of the close 
proximity of the National Radio and Astronomy Observatory to Green Bank 
Elementary the school cannot have wireless and other multimedia 
technologies. The hands-on TIS system allows students to have search 
aids in the computer labs and without funding the students would be at 
a large disadvantage.
    The SRS dollars provided to Green Bank Elementary was extremely 
important in keeping many programs and staff that are vital to our 
children's education. While many schools are having to cut their music 
programs the dollars provided by Secure Rural Schools saved this 
program and the teacher who helps children in all grade levels. Small 
class sizes is another important aspect of providing a good education 
and the SRS dollars allowed us to keep two first, second and third 
grade teachers thus allowing our teachers to be more attentive to the 
students needs.
    When people move to our town, they do so because they love the 
environment we offer and they believe they can raise their children 
here. They should also believe that we can offer them a complete 
education where their children can successfully compete in the world 
even if we are a low income county. It doesn't take making a lot of 
money to live here but it still takes a lot of funds to offer a 
complete education comparable to the rest of our nation. Our nation can 
overcome our challenges if we start with the children and educating 
them for the competitive world our nation is a part. The Secure Rural 
Schools dollars ensures part of this demand is met.
    20% of our revenue for our schools comes from federal funding. 
312,000 acres in Pocahontas County are Federal land. This means they 
provide no property tax revenue and the harvest has decreased 
substantially It is likely this scenario will never change. Our county 
also ranks 51 out of 55 in total expenditures and salaries and benefits 
for teachers are near the bottom compared to other counties in WV. The 
Secure Rural Schools dollars is vital and part of great contract first 
established in 1908 that helps our county and educational system give 
more to its people.
    Secure Rural schools dollars supports my teaching about 75 students 
level 1 Spanish and approximately 130 5th and 6th grade exploratory 
Spanish () throughout the school year. Teaching exploratory better 
prepares the students for success in Spanish 1 as they are more 
confident in their abilities and more willing to learn the younger they 
are reached.
    SRS funding also allows the schools to offer a few educational 
community based learning experiences to our students. The Board of 
Education can provide transportation for these events. Events, such as 
the archeology dig in Science class, take the students to a real dig 
site in which they enjoy a hands-on experience. I am also excited that 
the BOE can provide transportation to the airport and back so I can 
take my students on an immersion trip to Costa Rica. This trip is very 
meaningful to the students and helps integrate global awareness into 
our curriculum.
    Nine other teaching positions reach approximately 1000 students in 
the county across all disciplines. Most teachers at middle school level 
teach 7 classes daily in which there are 20-30 students on average. 
Elementary teachers have classes of 20 to 28 students and high school 
teachers on block schedule teach 30 plus students per 3 blocks. Our 
music teacher at Marlinton Middle school is stretched between two 
schools as well but he was able to begin a choir class which boasts 
about 50 members and has been an absolute hit with the students, staff 
and parents. Ten positions in our county also allows for ten families 
who live, own land or housing, work and play here and thus bring their 
income into our county.
    Personnel are coveted members of our staff. Green Bank School is 
able to have 4 aids positions, one of which works directly with a 
mentally handicapped student giving him the hands-on help he needs. 
Another wonderful aid divides her time in the elementary wing. She sees 
and personally intervenes or supplements the instruction of at least 30 
students daily while still helping the overall flow of the classes. She 
helps teachers create flashcards or resources they would normally not 
have time to create. She is a great help since Green Bank lost their 
half time Special Education teacher and struggles to meet all the 
Individualized Education Plans of some students. While this may sound a 
little grim, I can assure you that Secure Rural School's dollars are at 
the heart of keeping our education to students consistent.
    My husband was raised on this land. He loves it and I love it here. 
We have created a home. We own land and cattle and we farm. So, yes, 
Secure Rural Schools funding is very important to me personally but 
more importantly, it really matters to the great young minds that call 
Pocahontas County home.
                                 ______
                                 
    Mr. Grijalva. Thank you. I appreciate it. Mr. Scott 
Stouder, Idaho Public Lands Director, Trout Unlimited. Welcome, 
sir, and I look forward to your comments.

STATEMENT OF SCOTT STOUDER, IDAHO PUBLIC LANDS DIRECTOR, TROUT 
                   UNLIMITED, POLLOCK, IDAHO

    Mr. Stouder. Thank you. Mr. Chairman, and members of the 
Committee. My name is Scott Stouder. I live in Pollock, Idaho. 
I am Trout Unlimited's Public Lands Director in that State.
    I appreciate the chance to talk with you today about my six 
years of service in the Idaho Southwest Resource Advisory 
Committee. Trout Unlimited believes that Title II of the Secure 
Rural Schools Act is an effective conservation and community-
building program.
    We strongly support reauthorization. To increase the Act's 
public benefits, we offer two recommendations. One, allocate at 
least 15 percent of Secure Rural Schools funds in Title II 
projects. This allocation would roughly double the current 
level of Title II funding.
    Two, dedicate at least half of the Title II funding 
allocation, 7-1/2 percent of the Act's total, to watershed 
protection and restoration projects to improve watershed health 
for fish and wildlife habitat.
    Trout Unlimited makes these recommendations based on long 
experience in restoring streams in rural communities, and 
working with ranchers in the West, farmers in the Midwest, and 
mining communities in the East.
    My Southwest Idaho RAC encompasses seven counties, and has 
averaged approximately $1 million per year in Title II funding 
to invest in collaborative projects, maintaining public lands, 
and restoring watershed health.
    Over the years, I have reviewed hundreds of projects. I 
feel like every one of those projects has value. I would like 
to share a story of one of them with you. Several years ago a 
dedicated and enthusiastic school principal from Council, 
Idaho, figured out how to raise the money----
    Mr. Grijalva. Sir, if I could ask you for the recording 
purposes and hearing purposes to pull the microphone a little 
closer to you.
    Mr. Stouder. I am sorry. Is that better?
    Mr. Grijalva. Yes, thank you.
    Mr. Stouder. OK. So I would like to share a story of one of 
these projects with you. Several years ago a dedicated and 
enthusiastic school principal from Council, Idaho, figured out 
how to raise money for a biofuels plan, basically a woodchip 
burning facility that directly heats and cools the Council's 
school buildings.
    For five years now, it is saving the district about $40,000 
a year in energy costs, and the district is paying off their 
local bonds with those savings. This is a good story, but it 
gets even better with the involvement of the RAC.
    Title II funding expanded this biofuels effort, and brought 
the National Forest and the community together in accomplishing 
a lot more than just simply saving electrical bills.
    The local high school had been raising native plants in a 
small school greenhouse for the Payette National Forest 
Restoration Projects. Students and teachers love the hands-on 
nature of the project, and build a really robust curriculum 
around the whole effort.
    But the program was constrained by a small and inefficient 
greenhouse. So they put their heads together and asked, why 
don't we build a bigger and more efficient greenhouse and use 
this new biofuels plant to heat and cool it?
    We listened to the enthusiasm that teachers, parents, 
students, and local Forest Service folks had, who explained how 
this effort would not only give the Ranger District a valuable 
source of native plants for restoration work, but also instill 
an enthusiasm in the students for forestry and ecology, even 
gaining college credits in natural resource programs at Idaho 
State colleges.
    Over the past three years, and in two phases, our RAC has 
funded about $150,000 worth of state-of-the-art improvements in 
the greenhouse to make it run efficiently off the biofuels 
facility.
    This year, high school students and Forest Service 
personnel have had their first successful restoration planning 
of over 2,000 plants from the greenhouse. We are really looking 
forward to this project as it benefits both the Forest Service 
and the local economy for years to come.
    This is the same kind of collaboration that my friend and 
co-worker, Matt Woodard, from Idaho Falls, has fostered in his 
almost 10 years of work to restore the South Fork of the Snake 
River.
    The South Fork is one of the jewels of the greater 
Yellowstone system, and in this intensive restoration project, 
Trout Unlimited has been partnering with the Southeast Idaho 
RAC.
    Matt's RAC has held funds for four major stream restoration 
projects over the years, contributing a total of $62,000. Other 
funding on these projects all match the RAC funding several 
times over.
    This collaborative work has helped to keep Yellowstone 
Cutthroat off the Endangered Species list, and has restored 
fish populations throughout the South Fork. This is an example 
of the RACs investing in watershed health in their community, 
with the support of local landowners and sportsmen.
    These projects help illustrate how the value of public 
lands for recreation, and wildlife habitat, and clean water, 
are associated with economic growth and well-being. Local 
government services help public land counties attract and 
retain businesses and families who choose to live near public 
lands.
    Secure Rural Schools reauthorization, with the 
recommendations that I have outlined, has the opportunity to 
build support for the conservation and restoration activities 
on public lands, and contribute to local governments' abilities 
to leverage these values into a community's sustainability.
    In today's world the bulk of the economic value of public 
land lies in its ability to attract people who want to live and 
work near these lands. To summarize, Trout Unlimited strongly 
supports the Secure Rural Schools Act, and urges Congress to 
reauthorize these programs.
    And Trout Unlimited respectfully recommends that the 
Committee consider our recommendations that are detailed in my 
written testimony. So, thanks again to all you folks for the 
opportunity to testify. Thank you.
    [The prepared statement of Mr. Stouder follows:]

    Statement of Scott Stouder, Idaho Public Lands Director, Trout 
                               Unlimited

    Dear Chairman and Members of the Committee:
    My name is Scott Stouder. I live in Pollock, Idaho. I'm Trout 
Unlimited's (TU's) public lands director in that state. I appreciate 
the chance to talk with you today about serving on one of Idaho's 
Resource Advisory Committees, or RACs. I've served on the Southwest 
Idaho RAC for the past six years, and in that time I've discussed and 
considered hundreds of project proposals.
    My brief testimony today will demonstrate why TU affirms that Title 
II of the Secure Rural Schools and Community Self-Determination Act 
(``SRSCA'') is an effective program for conducting substantial resource 
conservation projects in a cooperative manner with excellent 
stakeholder and community buy-in. Because of its great record of 
success, we strongly support reauthorization of the program and urge 
Congress and the Administration to work together to ensure a smooth and 
seamless future for it. To increase the Act's public benefits, we offer 
two recommendations for a reauthorized program:
        <bullet>  Allocate at least 15% of SRSCA funds to Title II 
        projects. Though it would not apply to Counties that receive 
        less than $100,000 per year, this allocation would roughly 
        double the current level of Title II funding.
        <bullet>  Dedicate at least half of the Title II funding 
        allocation (7.5% of the SRSCA total) to watershed protection 
        and restoration projects that will improve watershed health and 
        fish and wildlife habitat.

I. Trout Unlimited and RAC's
    Under Title II of the SRSCA, the Secretaries of Agriculture and 
Interior--who are responsible for National Forest and BLM lands, 
respectively--are authorized to establish Resource Advisory Committees 
(RACs). The RACs are charged with proposing Title II projects. Each RAC 
must consist of fifteen stakeholders, broadly representing 
conservation, community and commodity interests. The applicable 
Secretary has the discretion to approve of RAC projects. Such projects 
must further the purposes of the SRSCA, including fostering investment 
in roads and other infrastructure, soil productivity, ecosystem health, 
watershed restoration and maintenance, control of noxious weeds, and 
reestablishment of native species. RACs typically have authority over 
some subset of a state's territory. For instance, there are six RACs 
for the State of Idaho: Central Idaho, Eastern Idaho, the Idaho 
Panhandle, North Central Idaho, South Central Idaho, and Southwest 
Idaho.
    TU works to restore streams and rivers, because anglers and 
sportsmen care about healthy rivers and great places to take their kids 
fishing. This means that TU works in rural communities across the 
country: with ranchers in the West, farmers in the Midwest, and in 
rural mining communities in the East. TU cleans up mining pollution, 
works with farmers and ranchers to improve riparian habitat and restore 
stream channels, and works with western irrigators to improve water 
management and restore streamflows. TU also works with sportsmen who 
care about protecting great hunting and fishing places on public lands. 
That's mostly what I do.
    The RACs that the SRSCA started back in 2000 are a natural fit with 
TU's work because of our partnership approach, and our focus on 
restoring watersheds. The funding that comes through the RACs has 
contributed to these watershed efforts.
    From FY 2001 to FY 2009, Title II of the SRSCA has directed $308 
million to the RACs. That's only 8.3% of the total SRSCA funding, but 
it has made a difference. One hundred and eight (108) RACs have been 
authorized through the SRSCA; 55 were initially organized, and 53 more 
have been added since.
    I'm going to tell you about what my RAC has done, and also mention 
how the South East Idaho RAC helped restore the South Fork of the Snake 
River--the great work that my Idaho co-worker Matt Woodard has done in 
partnership with his local RAC.

II. My Story
    My SW Idaho RAC encompasses seven counties: Adams, Boise, Elmore, 
Gem, Idaho, Valley and Washington. Our Title II funding has averaged 
approximately one million dollars per year, investing in collaborative 
projects that contribute to maintaining public lands and restoring 
watershed health. That money has been instrumental in helping these 
local governments meet such basic needs on public lands within their 
borders such as access infrastructure maintenance, educational and 
outreach needs and other services provided by county government on our 
public lands. In these large, rural counties, where land ownership is 
predominately Forest Service, that's a critical source of funding. From 
TU's perspective, the Secure Rural Schools program provides important 
funding for watershed restoration projects stretching the spectrum from 
culvert replacements to road improvement and decommissioning.
    One of the project criteria that our RAC places high emphasis on is 
matching funds. This effort not only multiplies the fiscal power of the 
federal funding in each project, but invests other groups, agencies and 
landowners into the projects and the entire program. This ``community 
and collaborative building'' part of the program is an important 
factor. Indeed, it could be the most important factor. Not only is this 
``collaborative'' effort spelled out in the Act itself, but, in my 
opinion, it's the glue that brings everything together and enables the 
program to be more than just another source of federal funding.
    A great example of the RACs' emphasis on collaboration, in my mind, 
is a project that our RAC participated in with the Council, ID (Adams 
County) school district a few years ago. Murray Dalgleish, the Council 
school principal and school district superintendent came to us with a 
proposal to help expand the bio-fuels heating and cooling of his 
school, which he had developed, constructed and funded through various 
sources, including passing a local bond.
    Council, ID, like many small, rural communities, has high 
unemployment, low per-capita income and is surrounded by National 
Forests. Like many other communities its history is timber, but its 
lumber mills have come and gone and its basic economy now is small 
farms and ranches, some special-niche logging, and what jobs the Forest 
Service and local government offers. So money is tight and passing a 
local bond to fund a new--and basically untested--heating and cooling 
system for the school, as you could imagine, was not an easy task. The 
bio-fuels plant is basically a wood-chip burning facility in a small 
concrete building located on the school property that directly heats 
and cools the Council school buildings. The system has been up and 
running for five years now. It is saving the district about $40,000 a 
year in energy costs, and the district is paying off their bond with 
those savings.
    The Council school district's bio-fuels plant is a wonderful 
success story in itself, but I want to tell you the story of how the 
Secure Rural Schools program helped expand that effort to help bring 
their national forests and the community closer together, while doing 
much more than just saving on electric bills.
    The Council high school had been involved with the Council Ranger 
District on the Payette National Forest for some years, raising native 
plants in a small greenhouse on the school property. Those native 
plants were then used in restoration projects on national forests in 
the District. The school had built up a robust curriculum around this 
effort with many students involved in raising the plants and going out 
on the National Forest and helping plant and work on local restoration 
projects. However, the program was constricted by budget and space for 
raising plants. The greenhouse was small, inefficient, and very 
expensive to operate. Murray, his students and staff, and District 
Forest Service personnel put their heads together and said: ``Why don't 
we build a new, bigger and more efficient greenhouse, and use the new 
bio-fuels plant to heat and cool it?''
    So, about three years ago they came to us--the SW RAC--with a 
$94,000 proposal to help construct a new greenhouse. We listened to the 
enthusiasm of parents, teaching staff and students, as well as local 
Forest Service folks, who explained how this effort not only would give 
the District a valuable source of native plants for restoration work, 
but it was instilling an enthusiasm in students for furthering their 
education in forestry and natural resources--even to the extent of 
gaining college credits in natural resource programs at two of Idaho's 
state colleges. Our RAC decided to fund the proposal and the greenhouse 
was built. Last year, as the greenhouse was being completed, Murray 
came back to us, with a $55,000 funding request to vastly improve the 
circulatory and computerized environmental control characteristics 
within the greenhouse. We funded that project as well. This year, the 
Council school district, working with local Forest Service personnel, 
have had their first successful planting of over 2000 plants from the 
greenhouse. We're looking toward watching this project bear fruit to 
both the National Forest and the local community for years to come.
    Although our committee has funded hundreds of beneficial projects 
in the SW Idaho RAC's region over the years that I've served, this 
project stands out to me as an example of how well the Secure Rural 
Schools program and local RACs can work to bring local communities 
together with their federal land agencies to help the public lands that 
we all enjoy and cherish.

III. RAC's and Investment in Healthy Landscapes
    This is the same kind of collaboration that my friend and co-
worker, Matt Woodard, has fostered in his almost ten years of work to 
restore the South Fork of the Snake River. The South Fork is an iconic 
western river that is one of the jewels of the entire Greater 
Yellowstone area. In this intensive restoration project, he has 
partnered with the South East Idaho RAC to produce significant 
conservation benefits.
    The South Fork of the Snake River Restoration Project began in 2001 
with the goal of reversing the decline of the native Yellowstone 
cutthroat trout fishery. The project has three basic components: 
habitat restoration; dam operation improvements; and angler engagement, 
with the goal of encouraging anglers to ``catch and keep'' non-native 
rainbow trout. TU has successfully reconnected four major Yellowstone 
cutthroat spawning tributaries to the mainstem, and works with private 
landowners in the area to improve fish passage and habitat around 
irrigation diversions. TU also works with the Bureau of Reclamation to 
regulate flows from Palisades Dam so they support the imperiled native 
fish.
    The South East Idaho RAC helped fund the four major stream 
restoration projects, over the years contributing $62,000. These 
projects all matched the RAC funding several times over. For example, 
the restoration and reconnection of Garden Creek to the South Fork of 
the Snake River was an over $300,000-dollar project that matched the 
RAC's $17,000 contribution with private donations, landowner 
contributions, state restoration dollars, and other federal sources.
    This collaborative work has helped to keep Yellowstone cutthroat 
trout off the endangered species list, and has restored fish 
populations throughout the South Fork, creating a healthier, more 
robust river. It's an example of the RAC's investing in watershed 
health in their community, with the support of local landowners and 
sportsmen. It's keeping dollars in the rural areas while producing 
wide-spread public benefit.

IV. Public Benefit of Title II Funding Carried out Through RACs
    The Secure Rural Schools Act insulates county budgets from the 
boom-and-bust cycle of timber harvest and mining operations on federal 
lands. Not only is this good for rural school systems and county road 
budgets, the 8% of the Act's funding that goes through the RACs helps 
protect the values on federal lands in a way that benefits local 
communities.

A. The Values of Public Land Contributes to Sustainable Economies
    It's a given that the values of public lands--for recreation, 
wildlife habitat, and clean water--are associated with economic growth 
and well-being. Quality local government services help public-land 
counties attract and retain businesses and families who choose to live 
near public lands. SRSCA reauthorization with the recommendations I've 
outlined has the opportunity to build support for conservation and 
restoration activities on public lands, and contribute to local 
government's ability to leverage these values into community 
sustainability.
    This is because in today's economy, the bulk of the economic value 
of public lands lies in its ability to attract people--and their 
businesses--who want to live near protected lands for quality of life 
reasons. For example, research by the U.S. Department of Agriculture, 
Headwaters Economics, and others, has shown that 93% of employment in 
the 11 western states, comes from sources other than public lands' 
timber harvesting, mining or energy development. Similarly, a detailed 
economic analysis of the Clearwater Stewardship Project on the Seeley 
Lake District of Lolo National Forest in Montana (2003-2004, over a 
project area of 6800 acres) showed that the portion of the contract 
invested in restoration and monitoring accounted for 10% of the 
economic activity generated from the contract, and diversified the 
economic sectors that benefited from the contract. Surveys of business 
owners have consistently identified quality of life, including 
environmental amenities provided by public lands, as a key factor 
determining where entrepreneurs choose to locate. Amenities are also 
well-known to be a key factor in the attraction of retirement wealth.
    A good example is the mostly rural Greater Yellowstone Area, with 
18 million acres of public lands in Idaho, Montana and Wyoming. When 
compared to fast-growing areas of the West, such as the Silicon Valley, 
the Puget Sound area, and the Front Range of Colorado, the Greater 
Yellowstone has outperformed them in the last three decades in terms of 
growth of jobs, and real personal income, wages, and per capita income. 
Why has this area done so well despite being rural and isolated? 
Because the wildland amenities of Greater Yellowstone are an asset that 
attracts talented people. Stories such as these are repeating 
themselves as the West transitions into a much more diverse, and 
resilient economy. Healthy, naturally functioning public lands with 
abundant fishing, hunting and outdoor recreation play a key role in 
that transition.

B. Recommendations for the Future
    To summarize, TU strongly supports the SRSCA and urges Congress to 
reauthorize its programs. Title II funding, and the RACs which develop 
the Title II projects, have been extremely valuable for improving 
watershed health in communities around the Nation. Recognizing this 
link between creating resilient, sustainable rural economies and 
investing in healthy federal lands, TU respectfully recommends that the 
Committee consider the following:
        <bullet>  Allocate at least 15% of SRSCA funds to Title II 
        projects. Though it would not apply to Counties that receive 
        less than $100,000 per year, this allocation would roughly 
        double the current level of Title II funding.
        <bullet>  Dedicate at least half of Title II funding (7.5% of 
        the SRSCA total) to watershed protection and restoration 
        projects that will improve watershed health and fish and 
        wildlife habitat.
    Healthy watersheds on federal lands provide not only high quality 
habitat for fish and wildlife, but also a suite of ecosystem services, 
such as clean drinking water and delivery of water for downstream 
users, that benefit nearby communities. TU sees the provision of 
ecosystem services from counties' federal lands as an opportunity to 
provide a compelling rationale for sustainable funding for county 
payments, while also contributing to protecting and restoring the 
health of our large, public landscapes.
    Thank you for the opportunity to testify today.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir. Mr. Allan Thayer, President 
of Dolores RE-4A Board of Control, Dolores, Colorado. Welcome, 
sir, and I look forward to your comments.

 STATEMENT OF ALLAN THAYER, PRESIDENT, DOLORES RE-4A BOARD OF 
                   CONTROL, DOLORES, COLORADO

    Mr. Thayer. Thank you. Chairman Grijalva, and Ranking 
Member Bishop, and members of the Committee, good morning, 
Allan Thayer at your service. I am an elected school board 
member, and business owner, and coach, and father of a 
sophomore daughter.
    My son graduated from the University of Colorado at Boulder 
last year, pre-med. I live in Montezuma County, in southwest 
Colorado. It is an arid region, half high desert and half 
mountains. It is home to the Mesa Verde National Park, Canyon 
of the Ancients, and Four Corners National Monument.
    There are 2,084 square miles in the county, an area a 
little larger than Delaware. Six hundred seventy-six square 
miles are the Ute Mountain Ute Tribe reservation. Three hundred 
eighty-seven square miles are National Forests. Two hundred 
eight square miles are Bureau of Land Management.
    The county is roughly 70 percent Federal land, and 30 
percent private. There are approximately 27,000 people here, 
and three school districts. My school district, Dolores RE-4A, 
has 710 students.
    Last year the Dolores RE-4A School District received 
$37,598 in Secure Rural School funds. We used this money for 
another elementary teacher. This allowed us to keep our class 
size small, about 18 to 22 students.
    Our elementary school focuses on reading and math, and with 
this money over the last couple of years, we are continually 
bringing up test scores in these areas. Even with our school 
population at 55 percent below poverty level, we are a high-
achieving district within our State.
    The Mancos School District, the smallest in the county with 
about 400 students, received $20,271. Their superintendent said 
that in these hard economic times, the Secure Rural School 
funds have allowed us not to have to cut a teaching position.
    The Cortez School District, our largest, with an enrollment 
of approximately 2,900 students, received $155,514. The Cortez 
Chief Financial Officer wrote that our average teacher costs is 
about $48,100. Our 2009 and 2010 payment from Secure Rural 
Schools paid for a little over three teachers.
    This money has been essential with our declining 
enrollment, need to change, and the economic climate that has 
reduced our State funding. A few years ago the Acting 
Superintendent of Mesa Verde National Park, William Nelligan, 
and his family, moved to Dolores from New Jersey. He has three 
school-aged children, and he and his wife were worried about 
coming to a small rural area as their children had attended a 
private school in New Jersey. They checked out Dolores and 
couldn't believe the quality of our staff, administration, 
curriculum, and our community involvement. Two years ago, we 
passed a Mill Levy Override.
    Mr. Nelligan said that my fifth grade son was welcomed 
personally by the principal, and then he was assessed by the 
counselor and his teacher, and they challenged him to the high 
end of his learning level. He was allowed to slide nowhere.
    My freshman daughter was excited that you had an FFA 
program, and it is quality from top to bottom. Your graduation 
rate and college placement of seniors is unheard of.
    The Dolores RE-4A School District graduates on average 95 
percent of our incoming freshman. In May's graduation, we sent 
over 40 of our seniors--we had 54 seniors--to higher education.
    We are an economically depressed area. Dolores RE-4A ranks 
in the bottom 15 percent in our State. We need and are very 
appreciative of these Secure Rural School dollars to maintain 
our high standards.
    Colorado limits school district revenue to property taxes 
in a State equalization formula that even the Colorado 
Department of Education does not understand. Every dollar 
outside of our property taxes is very important. 163 people in 
Dolores work for taxing districts, the school or the Federal 
Government.
    The other half work for taxpaying employers, the largest of 
which is the Aspen Wildwood Lumber Yard with 16 employees. I 
stated earlier that 70 percent of Montezuma County does not pay 
property taxes. Our income is farming, tourism, mom and pop 
sawmills, and very little mining.
    Our small businesses, grocery stores, gas stations, and 
restaurants, hotels, these places generate our tax dollars. 
Secure Rural Schools funding shows the United States Government 
understands the 41 States and Puerto Rico that receive these 
dollars need them to maintain the level of excellence in 
education that America demands.
    Montezuma County Commissioners have partnered with our 
school districts and give us the maximum amount of money at 
their disposal, which is 75 percent of the SRS money. The other 
25 percent goes to roads.
    I believe America's future quality of life depends on the 
education that we give our kids today. Thanks for the 
opportunity to testify, and please protect this funding source 
for our schools.
    [The prepared statement of Mr. Thayer follows:]

                 Statement of Allan Thayer, President, 
           Dolores RE-4A Board of Control, Dolores, Colorado

    Chairman Grijalva Ranking member Bishop and members of the 
committee, good morning. Allan Thayer at your service. I'm an elected 
School Board member, business owner, coach, and father of a sophomore 
daughter. My son graduated from University of Colorado Boulder last 
year pre-med.
    I live in Montezuma County in southwest Colorado. It's an arid 
region half high desert and half mountains. It is home to Mesa Verde 
National Park, Canyon of the Ancients, and Four Corners National 
Monument. There are 2,084 square miles in the county, an area a little 
larger than Delaware. Six hundred seventy six square miles are Ute 
Mountain Ute tribe reservation. Three hundred eighty seven square miles 
are National Forest. Two hundred eight square miles are B.L.M. The 
county is roughly 70% federal land and 30% private land. There are 
approximately 27,000 people here and 3 school districts. My school 
district, Dolores RE-4A, has 710 students.
    Last year, the Dolores RE-4A School District received $37,598.00 in 
Secure Rural School Funds. We used this money for another elementary 
teacher. This allowed us to keep our class size small, 18-22 students. 
Our Elementary focus is on reading and math, and with this money we are 
continually bringing up these test scores. Even with our school 
population at 55% below poverty level, we are a high achieving district 
within our state.
    Mancos School District, the smallest, with about 400 students 
received $20,271.00. Their superintendent said, ``In these hard 
economic times the Secure Rural School Funds have allowed us not to 
have to cut a teaching position''.
    Cortez RE-1 School District, our largest, with an enrollment of 
approximately 2,900 students received $155,514.00 (in 08-09 they 
received $181,523.00). The Cortez Chief Financial Officer wrote: ``Our 
average teacher cost is $37,400.00 salary, $10,700.00 in benefits for a 
total of $48,100.00. Our 2009-2010 payment paid for a little over 3 
teachers. This money has been essential with our declining enrollment, 
need to change, and the economic climate that has reduced our state 
funding''.
    Two years ago the acting Superintendent of Mesa Verde National 
Park, William Nelligan and his family moved to Dolores from New Jersey. 
He has 3 school age children. He and his wife were worried about coming 
to a small rural area, as their children attended a private school in 
New Jersey. They checked out Dolores and couldn't believe the quality 
of our staff, administration, and curriculum. Mr. Nelligan said ``My 
5th grade son was welcomed personally by the Principal. Then he was 
assessed by the counselor and his teacher, and then they challenged him 
to the high end of his learning level, he was allowed to slide nowhere. 
My freshman daughter was excited that you had an F.F.A. program, and it 
is quality from top to bottom. Your graduation rate, and college 
placement of seniors is unheard of.''
    Dolores Re-4A School District graduate on average 95% of our 
incoming freshman. In May's graduation, we sent over 40 out of 54 
seniors to higher education
    We are an economically depressed area--Dolores RE-4A ranks in the 
bottom 15% in our state. We need and are very appreciative of these 
Secure Rural school dollars to maintain our high standards. Colorado 
limits school district revenue to property taxes and a state 
equalization formula that even the Colorado Department of Education 
doesn't understand. Every dollar outside of property taxes is very 
important. One hundred sixty three people in Dolores work for taxing 
districts (the school or the federal government). The other half work 
for the tax-paying employers, the largest of which is Aspen Wall Wood, 
a lumber yard, with 16 employees.
    As stated earlier, 70% of Montezuma County does not pay property 
taxes. Our income is farming, tourism, and very little mining. Our 
small businesses, grocery stores, gas stations, restaurants, hotels, 
these places generate our tax dollars.
    Secure Rural Schools Funding shows the U.S. government understands 
the 41 states and Puerto Rico that receive these dollars need them to 
maintain their level of excellence in education that America demands! 
Montezuma County Commissioners have partnered with their school 
districts and give them the maximum amount of this money at their 
disposal. I believe America's future quality of life depends on the 
education we give our kids today.
    Thank you for the opportunity to speak and please protect this 
funding source for our schools.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir. Mr. Elias Coriz, Chairman, 
Rio Arriba County Commission, Espanola, New Mexico. Welcome, 
Commissioner. I look forward to your comments.

     STATEMENT OF ELIAS CORIZ, CHAIRMAN, RIO ARRIBA COUNTY 
                COMMISSION, ESPANOLA, NEW MEXICO

    Mr. Coriz. Thank you, Mr. Chairman, and members of the 
Committee, and Ranking Member Bishop, I would like to take the 
opportunity to provide a grassroots local perspective in regard 
to very special legislation. I would also like to recognize The 
Honorable Congressman from New Mexico, Ben Ray Lujan, Junior, 
for all the support and commitments that he has to New Mexico.
    A brief history: 22 out of 33 New Mexico counties receive 
Secure Rural Schools and Communities Self-Determination 
funding. The Rio Arriba County Commission, for the past 7-1/2 
years that I have served, has taken steps to implement numerous 
projects compatible with the Secure Rural Schools, in addition 
to spending county general fund dollars in pursuing similar 
goals.
    Rio Arriba County is larger than three of our smallest 
States. We have over 5,100 square miles of land within our 
county. Seventy percent is in the public domain. We have nearly 
900 miles of county roads in our inventory, and over half of 
that mileage provides access to our national forests.
    We have had agreements in place for decades to assist the 
Forest Service and Bureau of Land Management to maintain not 
only county roads, but county roads that also access our Forest 
Service.
    This is where 85 percent of these SRS monies go. New Mexico 
law requires that Title I monies go into road budgets, a 
restricted fund. Prior to 2008, the county received less than 
$200,000 per year for our road fund, and $60,000 for Title II 
and Title III.
    The increase in monies that came with the adjustable and 
more equitable 2008 funding formula has resulted in upgrades of 
road construction. The county has been able to pave some of its 
primary roads to some of its Secure Rural communities, and 
roads that also lead to our forest lands.
    An example of the use of Forest Service lands in New 
Mexico, the Rainbow Family had their reunion in 2007 on the 
Carson National Forest and on the Santa Fe National Forest in 
2009, and nearly 10,000 family members attended this reunion, 
and placed an extraordinary demand on county law enforcement 
and emergency services, road maintenance, hospital clinics, and 
other local services.
    Repairing the ecological damage at the end of a month of 
camping by the equivalent of a medium-sized city population 
involved many volunteers, county and State staff, to clean and 
repair very large areas.
    Rio Arriba County is diligent in the protection of its 
natural resources in our rural communities through the forest 
resources, for these were connected to our grant lands.
    The advocacy for the Treaty of Guadalupe Hidalgo is a duty 
imposed on New Mexico County Commissions and State officials in 
our State Constitution. We have engaged our communities in 
developing the vision and the goals embodied in the 
comprehensive plan.
    The comprehensive plan tracks closely with those initially 
adopted and today are a part of SRS. The association currently 
has memorandums of understanding with the BLM and the Forest 
Service, and has a Federal employee liaison working full-time 
to implement public plan initiatives, such as watershed 
protection, wildland fire planning and mitigation, forest 
restoration, and Federal programs, all of which are under the 
Title II and Title III SRSCA.
    Because of the history of lost land grants and most 
recently the loss of multiple use of forest plans reduced to 
such laws as the Endangered Species Act, the people of Rio 
Arriba County at times have a strained relationship with the 
Forest Service.
    It is sometimes difficult to get the county residents to 
trust and engage in activities with these Federal agencies. Our 
county government tries hard to fulfill our commitments and 
responsibilities to all our residents under existing Federal 
and State laws.
    Hundreds of Acts, legal cases, and regulations, have been 
promulgated in the Organic Act of 1897. If you look at the 
statistics, those counties who have the largest tracts of 
national forests ranked among the poorest, and most unemployed, 
and have the poorest access to health care, and too numerous 
other challenges.
    Let us continue to join our efforts to keep forest-
dependent communities sustainable in their culture, their 
economic and social viability, for this will be the best way of 
conserving and benefiting from the boundary and beauty of our 
national forests. Thank you, Mr. Chairman, and members of the 
Committee.
    [The prepared statement of Mr. Coriz follows:]

 Statement of Elias Coriz, Immediate Past Board Member and Treasurer, 
New Mexico Association of Counties; Member, Rio Arriba County Board of 
    Commissioners, Former Member, Espanola Valley Schools Board of 
Education, on behalf of the New Mexico Association of Counties and Rio 
                             Arriba County

    First, let me thank the Honorable Chairman of this Committee, 
Congressman Grijalva and all the other Members of the committee for the 
opportunity to provide a local perspective in regard to this very 
important legislation. I would also like to acknowledge, and thank, our 
own Congressman Ben Ray Lujan, Jr., a member of this Committee, for all 
the support that he provides for his constituents in Northern New 
Mexico.
    22 of 33 New Mexico counties receive some Secure Rural Schools and 
Community Self Determination Act (SRSCA) funding. For over a century 
counties have helped the federal government meet the commitments 
embodied in the philosophy, mission, and goals of the Forest Reserve 
Organic Administration Act of 1897.
    The Rio Arriba County Commission has for the past seven and a half 
years that I have served, taken steps to implement numerous projects 
compatible with SRSCA in addition to, spending county general fund 
dollars pursuing similar goals. Rio Arriba County is larger than the 
three of our smallest states; we have over five-thousand-eight hundred 
square miles of land within the county, 70% of which is in the public 
domain. We have nearly nine hundred miles of county roads in our 
inventory and over half that mileage provide access to National Forest 
Lands or are within Forest Boundaries. We have had agreements in place 
for decades to assist the Forest Service and Bureau of Land Management 
maintains not only on county roads but some of their roads as well, 
this is where 85% of the SRSCA money goes. New Mexico law requires that 
the Title I monies go into the road budget, a restricted fund.
    Prior to 2008 the County received less than two-hundred thousand 
dollars per year for our road fund, and sixty thousand for Titles II 
and III. The increase in road monies that came with the adjusted, and 
more equitable, 2008 funding formula has resulted in upgraded road 
construction. The county has been able to pave some of the primary 
roads that serve rural communities, roads that also serve the forest 
lands.
    As an example of the use of Forest Service lands in Rio Arriba 
County, the Rainbow Family had their reunion in 2007 on the Carson 
National Forest and on the Santa Fe National Forest in 2009. Nearly ten 
thousand family members attended these reunions and placed 
extraordinary demands on county law enforcement, emergency medical 
services, road maintenance, hospitals clinics and other local services. 
Repairing the ecological damage at the end of a month of forest camping 
by the equivalent of a medium size city population involved many 
volunteers and county and Forest Service staff to clean and repair a 
very large area. All this happened through cooperation between three 
counties (Rio Arriba, Taos and Sandoval) and the Forest Service.
    We have been working closely with our rural forest dependent Indio-
Hispano villagers and our Tribal communities to implement removal of 
invasive exotic vegetations and conserve water. Rio Arriba County is 
diligent in the protection of usufructory rights of our rural 
communities to forest resources where those were connected to grant 
lands. The advocacy for Treaty of Guadalupe Hidalgo is a duty imposed 
on New Mexico County Commissions and State Officials in our State 
Constitution and the treaty is inexorably tied to National Forest 
Lands. We have engaged our communities in developing the vision and 
goals embodied in our County Comprehensive Plan. The Comprehensive Plan 
tracks closely with those initially adopted in the Organic Act and 
today are part of SRSCA. In implementing our Comprehensive Plan we have 
adopted Ordinances to protect our very limited irrigated agricultural 
lands, worked with community water associations and traditional 
irrigators to maintain water quality and to protect future supply. We 
have moved to regulate Oil and Gas Development to protect private 
property owners and to protect our aquifers, and we have also adopted a 
``Best Practices'' Timber Ordinance for harvesting timber on private 
lands, successfully defending the ordinance from a legal challenge. 
Many of the private lands that are now regulated in the ordinance are 
surrounded by National Forest. We have also funded the work of several 
youth groups including the youth conservation corp. on Forest Service 
Lands.
    The New Mexico Association of Counties has had numerous discussions 
with member counties related to their relationship with the Forest 
Service. Most New Mexico counties are engaged in projects similar to 
those described for Rio Arriba County. The Association currently has 
Memorandums of Understanding with both the BLM and U.S. Forest Service 
and has had a federal employee liaison working full time with the 
Association and member counties to implement public lands initiatives 
such as watershed protection, wild land fire planning and mitigation, 
forest restoration and other federal programs all of which are allowed 
under titles II and III of SRSCA
    Because of the history of the loss of Land Grants and more recently 
the loss of multiple use of forest lands due to such laws as the 
Endangered Species Act, the people of Rio Arriba County, at times, have 
had a strained relationship with the Forest Service. It is sometimes 
difficult to get the county residents to trust and engage in activities 
with the federal agencies.
    Frances Swadesh, respected New Mexico historian in her treatise on 
the Tierra Amarilla Land Grant puts it this way:
        ``When the Court of Private Land Claims was dissolved in 1904, 
        the federal government had acquired control over more than 
        fifty-two million acres of land in New Mexico. Many of these 
        acres, opened for homestead entry, fell into the hands of 
        powerful ranching and mining interests, while nearly nine 
        million acres were set aside for national forests.''
    She goes on to say state that: ``During the early territorial 
years, the villagers on their scattered land grants did not realize the 
magnitude of what was taking place: a wholesale violation of their 
property rights as guaranteed by the Treaty of Guadalupe Hidalgo.''
    County governments try hard to fulfill our commitments and 
responsibilities to all our residents under existing federal and state 
laws, hundreds of Acts, legal cases and regulations have been 
promulgated since the Organic Act of 1897. The inconsistent approach by 
the federal government puts states and counties at a real disadvantage 
to plan budgets and long-term projects. We most often do not know when 
the political ground will shift out from under us.
    The New Mexico Association of Counties and Rio Arriba County 
endorse the recommendations forwarded by the Senate and the Congress in 
letters sent to President Barack Obama dated July 14 and 15, 2010 
encouraging him to include a long-term extension of SRSCA in his 2012 
budget. The letters are signed by over seventy Congressmen and thirty 
Senators. A review of the signatures accompanying the letters clearly 
indicate bi-partisan support for reauthorizing SRSCA. This was true in 
2000 and again in 2008 when it was extended six and four years 
respectively with changes in funding and requirements.
    The New Mexico Association of Counties and the County of Rio Arriba 
also support the National Forest Counties and Schools Coalition's 
Concept Paper titled ``The Sustainable Forests and Secure Rural Schools 
and Counties Act of 2010.'' (Herein included as an exhibit for the 
record)
    If you look at the statistics, those counties who have large tracts 
of National Forest Lands rank among the poorest, most unemployed, have 
the poorest access to health care and endure numerous other challenges. 
Let us continue to join our efforts to keep forest dependent 
communities sustainable in their cultural, economic and social vitality 
for this will be the best strategy for conserving and benefiting from 
the beauty and bounty of our National Forest Lands.

[GRAPHIC] [TIFF OMITTED] T7667.001

[GRAPHIC] [TIFF OMITTED] T7667.002

                                 .eps__
                                 
    Mr. Grijalva. Thank you, Commissioner. Mr. Mike Jacobs, 
President, Arkansas Association of Counties. Welcome, sir.

 STATEMENT OF MIKE JACOBS, PRESIDENT, ARKANSAS ASSOCIATION OF 
                COUNTIES, CLARKSVILLE, ARKANSAS

    Mr. Jacobs. Thank you, Mr. Chairman. Good morning. My name 
is Mike Jacobs, and I am a County Judge in Johnson County, 
Arkansas. I appreciate the honor and the privilege to be here 
today regarding the Secure Rural Schools and Communities Self-
Determination Act, a partnership between the Federal and local 
government that, in my opinion, is vital to the betterment of 
rural schools and roads in and about our national forests.
    Specifically, allow me to address my experience with the 
United States Forest Service in Johnson County. When I took 
office in 1991, Johnson County contained some 1,030 miles of 
roads, about 250 miles of which was located in the National 
Forest in our county.
    Our county road and bridge budget at that time was about 
$760,000 for the entire county. Today, our budget is $2.9 
million. The United States Forest Service in 1991 had a decent 
budget for the maintenance and the operation of the roads 
throughout the National Forest.
    The budget provided for the routine maintenance necessary 
to keep the gravel roads in good shape. Johnson County, of 
course, assisted the Forest Service in the maintenance of these 
roads on an as-needed basis.
    The partnership between the county and the Forest Service 
worked well for as long as our local Forest Service was 
provided with the funding to take care of the roads in the 
national forest.
    It was not long after I became a County Judge, however, 
that the funding to our local forest district began to 
decrease. Fast forward to 2010, and our local office of the 
Forest Service budgets some $30,000 per year for the 
maintenance of--actually, they have about 700 miles of Forest 
Service and county roads in the forest district there in 
Johnson County.
    In addition to that, the Forest Service no longer has a 
single road grader to grade the roads with, doesn't have a 
backhoe to put a culvert in, and it doesn't even have a dump 
truck to haul gravel in to put on the roads.
    The Forest Service attempts to provide some service on the 
roads of the national forests. However, with only $30,000 
available and no equipment with which to perform these routine 
maintenance services, they simply cannot perform much more than 
just cosmetic maintenance.
    And I think you would agree that $30,000 is not much in the 
way of maintenance. A contract for the costs of grading for 
about 200 miles of roads just one time is in excess of $24,000.
    So if the Forest Service were the only one that did any 
work up there, those roads would get graded about once every 
four years. Practically speaking, the Forest Service in Johnson 
County has had its ability to maintain the roads cut so 
severely that, for all intents and purposes, they no longer 
maintain the roads.
    Their position is that if a four-wheel drive can get up and 
down the roads, then that is going to have to do, and I think 
that most of you know that a lot of people in Arkansas don't 
even have a car, much less a four-wheel drive vehicle.
    I am sure that Members are aware that although we are 
talking about roads in the national forest, there are families 
that live in these areas and using these roads on a daily 
basis.
    There are dozens of families that live along these roads 
running through the Ozark National Forest. Our citizens have to 
have decent roads on which to drive to get to work, and upon 
which they can receive those services we often take for 
granted, such as mail service, school bus services for children 
who live in the areas.
    And although the funds to perform maintenance of their 
roads has been cut from the Forest Service budget, these roads 
must still be maintained, and that is where Johnson County 
comes into the picture.
    In the last several years, Johnson County has had no choice 
but to assume near total responsibility for the maintenance and 
the upkeep of the roads in the national forest.
    We are constantly buying and hauling gravel to place on 
these roads, as well as using our road graders to provide the 
routine maintenance necessary to keep these roads passable.
    For Johnson County, this is where the Secure Rural School 
funding is vital. In 2008, Johnson County received some 
$690,000, although the lion's share of this revenue went to the 
rural schools, a reasonable amount comes to the county through 
Title I that helps to offset the expenses of buying gravel, the 
provision of heavy equipment for maintaining the roads, and the 
human capital necessary for operating that equipment.
    If the proposed cuts go forward, we will see Johnson 
County's share decrease from $690,000 to $245,000. Johnson 
County itself will experience a loss of over $60,000 that 
currently goes to buy gravel for the maintenance of these 
roads.
    At that level of funding the county will be maintaining the 
roads in our national forests essentially at very little cost 
to the Federal Government. Road maintenance is required in 
Arkansas by State law, and so our financial relationship with 
the Forest Service is vital.
    Otherwise, we will have to cut other social services to 
maintain the roads inside the Ozark National Forest. I 
respectfully suggest to the Members that the partnership 
between the Federal and local government that was forged during 
the Teddy Roosevelt Administration is in danger of completely 
falling apart.
    It is not a membership, a partnership, when one side 
provides all of the revenue needed by that partnership. Johnson 
County cannot tax the national forest. Consequently, we have no 
way of making up for the loss of those lands to our tax base 
without a program like Secure Rural Schools through which the 
Federal Government maintains its end of the bargain struck by 
President Roosevelt.
    I would like to make it clear that I am not chastising the 
Forest Service for the lack of maintenance on the roads in our 
national forests, because I am not. I have great respect for 
the Forest Service.
    In fact, back in the 1950s, there were very few jobs in 
Johnson County, and my father went to work for the Forest 
Service, and he actually retired from the Forest Service. So I 
have been around the Forest Service for about as long as I can 
remember.
    And that is not to say that occasionally the Forest Service 
does not come up with some special dollars on a special 
project, usually small projects that the county winds up with 
very little expense in, but this is not the rule, however. That 
is really the exception when they do come up with money.
    But I realize that I am out of time, but I would like to 
urge you all to support the long-term reauthorization of the 
Secure Rural Schools Act so that we can provide a dependable 
basis for those services that are fundamental to the economic 
welfare of the citizens of forest communities all across the 
United States. Thank you, sir.
    [The prepared statement of Mr. Jacobs follows:]

                Statement of The Honorable Mike Jacobs, 
                 County Judge, Johnson County, Arkansas

    Chairman Grijalva, Ranking member Bishop and Committee members good 
morning I am Mike Jacobs, County Judge, Johnson County, Arkansas. I 
appreciate the honor and the privilege of testifying here today 
regarding the Secure Rural Schools & Community Self-Determination Act; 
a partnership between federal and local government that, in my opinion, 
is vital to the betterment of rural schools and roads in and about our 
National Forests. Specifically, allow me to address my experience with 
the U.S. Forest Service in Johnson County, Arkansas.
    I was elected County Judge in 1991. At that time Johnson County 
contained some 1,030 miles of road 250 of which was located in the 
National Forests in our county. Our county road & bridge budget at that 
time was about $760,000 for the entire county. Today our budget is $2.9 
million dollars. The U.S. Forest Service, in 1991, had a decent budget 
for the maintenance and operation of roads through the national 
forests. The budget provided the routine maintenance necessary to keep 
gravel roads in decent shape. Johnson County, of course, assisted the 
Forest Service in the maintenance of these roads on an ``as needed'' 
basis. This partnership between the county and the Service worked well 
for as long as our local Forest Service office was provided with the 
funding to take care of the roads in the National Forests. It was not 
long after I became county judge, however, that funding to our local 
office began to decrease.
    Fast-forward to 2010 and our local office of the Forest Service 
budgets some $30,000 for the maintenance of the 250 odd miles of County 
roads running through the Ozark National Forest in Johnson County. In 
addition, the Forest Service no longer has a single road-grader, 
backhoe or dump truck. The Forest Service attempts to provide some 
service on the roads in the National Forest, however, with only $30,000 
available and no equipment with which to perform routine maintenance 
they simply cannot perform much more than cosmetic maintenance--and I 
think you would agree that $30,000 will not buy much in the way of 
maintenance. The contract cost of one grading of the 250 miles of road 
in the Ozark National Forest is in excess of $24,000. Practically 
speaking, the Forest Service, in Johnson County, Arkansas, has had 
their ability to maintain their roads cut so severely that, for all 
intents and purposes, they no longer maintain those roads. Their 
default position is ``if a 4-wheel drive can get up and down their 
roads then that will have to do.''
    I'm sure the members are aware that, although we are talking about 
roads in the National Forest, there are families living in these areas 
and using these roads on a daily basis. There are dozens of families 
that live in along roads running through the Ozark National Forest. Our 
citizens have to have decent roads on which they can drive to work and 
upon which they can receive those services, we so often take for 
granted, such as mail delivery and school bus services for the children 
living in these areas. Although the funds to perform maintenance of 
their roads have been cut from the Forest Service's budget these roads 
must still be maintained. That is where Johnson County comes into the 
picture.
    In the last several years Johnson County has had no choice but to 
assume near total responsibility for the maintenance and upkeep of 
roads in our National Forest. We are constantly buying and hauling 
gravel to place on these roads as well as using our road graders to 
provide the routine maintenance necessary to keep these roads passable. 
For Johnson County this is where the Secure Rural Schools funding is 
vital. In 2008 Johnson County received some $690,000. Although the 
lion's share of this revenue goes to our rural schools a reasonable 
amount comes to the county through Title I that helps to offset the 
expenses of buying gravel, the provision of heavy equipment for 
maintaining the roads and the human capital necessary for operating 
that equipment. If the proposed cuts go forward we will see Johnson 
County's share decrease from $690,000 to $245,000. Johnson County will 
experience a loss of over $60,000 that currently goes to buy gravel for 
the maintenance of these roads. At that level of funding the county 
will be maintaining the roads in our National Forest, essentially, at 
very little cost to the federal government. Road maintenance is 
required by State law so our financial relationship with the Forest 
Service is vital. Otherwise we will cut other social services to 
maintain roads inside the Ozark National Forest
    I would respectfully suggest to the members that the partnership 
between federal and local government that was forged during the Teddy 
Roosevelt administration is in danger of falling apart. It is not a 
partnership when one side provides all of the revenue needed by the 
partnership. Johnson County cannot tax National Forests consequently we 
have no way of making up for the loss of those lands to our tax base 
without a program like Secure Rural Schools through which the federal 
government maintains its end of the bargain struck by President 
Roosevelt.
    I would like to end by making it clear that I'm not chastising the 
Forest Service for their lack of maintenance of the roads in our 
National Forests because I'm not. I have great respect for the Service 
and, in fact, my father retired from the Forest Service so I've been 
around foresters for about as long as I can remember. Occasionally the 
Service is able to obtain additional revenues when there is a major 
crisis on one of their roads. Not too long ago one of our roads 
sloughed off the side of a hill stranding several households. Working 
with the Service in D.C. our local Ranger's office was able to get one-
time funds sufficient to make the needed repairs with little expense to 
the county. This is not the rule; however, unfortunately it is the 
exception. I have a great relationship with our local forester and I 
know she would love to have the revenues available to better take care 
of the roads in the National Forests, however, those revenues simply 
aren't available.
    I urge all of you to support a long-term reauthorization of the 
Secure Rural Schools and Community Self-Determination Act so that we 
can provide on a dependable basis those services that are fundamental 
to the economic welfare of citizens in Forested communities all across 
the United States. Thank You.
                                 ______
                                 
    Mr. Grijalva. Thank you, and all of the panelists, and let 
me turn to Mr. Kildee for any questions or comments that he 
might have. Sir.
    Mr. Kildee. Mr. Chairman, first of all, I want to thank you 
for having this hearing. It is very important that we kind of 
update our knowledge of the importance of this legislation.
    It is very important. You have really enlightened our minds 
and increased my motivation to make sure that we do what is 
right for you. We made commitments to you--free roads, free 
schools--and as a former teacher, I especially feel an 
obligation there.
    I have respect for all of you individually and 
collectively. Trout Unlimited in Michigan is a great 
organization. I will try to work closely with them, and so all 
of you not only represent yourself, but also many other people 
and institutions.
    And I really appreciate this, and if I may say to Ms. 
Groseclose [in Spanish] I am able to speak Spanish a little 
because I taught Latin in a public school, but I must practice 
more. Therefore, I should just go to West Virginia to practice 
with you and your students.
    Ms. Groseclose. [In Spanish] Excellent. I am going to be 
waiting for you.
    Mr. Kildee. [In Spanish] Thank you. Thank you.
    Mr. Grijalva. Probably the hardest class I ever took was 
Spanish.
    [Laughter.]
    Mr. Grijalva. I went in this with this arrogant attitude 
that I could speak it, and so therefore I knew it, and once I 
learned it, the reading and the writing part, it has been a 
wonderful addition to my life. So I am glad for teachers.
    Let me start with a couple of questions. Commissioner 
Pearce, the reauthorization of the legislation used a new 
formula to calculate payments to counties, which in some 
instances could be very difficult to implement.
    How does your county feel about the new formula, and what 
changes would you like to see in it?
    Mr. Pearce. Well, my State is one of the eight transition 
States, and so we did not immediately go under the new formula. 
I think that the new formula certainly brought an addition to 
those counties that have large tracts of land, but perhaps did 
not have large timber industries. I think this is a great 
benefit to those counties and increases their payments because 
that land is certainly not on their tax rolls either.
    The economic indicator is problematic, because if you take 
a county--and let us say my county, which on the west end is 
very close to the Portland Metropolitan Area. So, some 60 
percent of the folks leave the county to go to work.
    We take their income into account for the formula, but we 
don't have an income tax. So, in other words, the taxing 
authority for the county is a property tax, but we are using 
mean income to look at that salary level.
    You take the center of my county where 70 percent of the 
children are on free and reduced lunch, and we have an actual 
unemployment rate near 20 percent, and you realize that formula 
does not quite work.
    But I think that what we have put forward in discussions is 
a 10-year reauthorization with a payment equal to the 2008 
payment, without a formula, to be perfectly honest with you.
    And to look at that 2008 payment, which helped to level the 
playing field, and just move forward from there. I would 
certainly suggest that.
    Mr. Grijalva. Interesting. If I may, Mr. Jacobs, the 
current reauthorization that we are talking about today is 
working in your county. Would you change anything in the new 
formula, and kind of the same question for Title II or Title 
III?
    Mr. Jacobs. Mr. Chairman, I am really not familiar with 
what the new formula is. This is the first year that we have 
actually even had a RAC project in our county. We just now are 
getting caught up with the rest of the world in Johnson County.
    We have always used our monies in Title III projects, which 
was just for improvements, but it was just to buy some gravel 
and keep the roads passable. We don't have any great success 
stories to talk about, but I am not familiar with the formula.
    Mr. Grijalva. Thank you. I want to ask you, Mr. Thayer, 
that outside of the SRS funds, what do you think has led to the 
strength of your school system as you described it, and could 
you expand on that.
    Besides the SRS funds the system is strong, and what are 
some tips about how you got there?
    Mr. Thayer. I think we have had very good collaboration 
between our teaching staff, our board, and our community, which 
is unusual in a lot of places that I have been to.
    The parents are very, very behind--and all the parents, 
even years smashed between students and stuff like that, are 
behind education. We are very efficient with our money, and we 
have a good disbursement among the board members. Some are ex-
teachers, and some are business owners.
    Mr. Grijalva. And you are a board member, correct?
    Mr. Thayer. Yes, and I would say that we have managed our 
money very well, and we have built up a reserve, which has 
helped us get through these tough times. And our teachers make 
less than the surrounding areas, but because of the quality of 
life in our area, they stay, even for less money.
    Mr. Grijalva. Thank you. I was a school board member for 12 
years, and I think Mr. Coriz was as well. I share your pain, 
sir. Ms. Groseclose, since the reauthorization of SRS in 2008 
have you seen a difference in your program as you described it?
    Ms. Groseclose. Yes, I have seen a difference, that 
scheduling has been much better for me. I have one of the most 
hectic schedules in the school. I already travel between one 
school and another, 45 minutes a day.
    Mr. Grijalva. OK.
    Ms. Groseclose. And when I first began teaching, and I 
think it was just a rearranging of the money, too, because the 
money was there at that time, I had to teach half-an-hour of 
Spanish a day, and then 130 minutes of other things that they 
needed me to fill in so that other teachers could teach their 
core classes.
    And so I am able now, after a lengthy discussion with my 
principals, to teach 45 minutes each day, and also to have my 
own room where I can make this an important factor in the 
students' lives so they can see it as important like their core 
classes.
    Mr. Grijalva. Thank you. Let me begin with Commissioner 
Coriz, and then any of the other elected officials can chime 
in. We were talking about the budget, and I think Mr. DeFazio 
brought up that point.
    We have two forces going on here. As elected officials at a 
local level, you feel the pressure of a constrained budget more 
than anyone else does, and being a former county supervisor in 
Arizona, the demands on that budget are significant. I can tell 
you. I know.
    But my question is this. We have two schools going on. 
There is, I think, the need to invest. We have a great lesson 
today about our schools, and this Act about schools and 
transportation. It is a necessary investment to make up for.
    But I think, nevertheless, this is a very important 
education investment that we are making in rural America and an 
important transportation investment that we are making in rural 
America.
    And so we all agree to that, but here are the two forces. 
You have the investment force going and saying that we need to 
keep these programs alive. In fact, we need to augment the 
amounts in many cases.
    And then you have the other force that seems to be 
prevalent right now. Hold off on the investments while we deal 
with the debt or the deficit. And so let me begin with you, 
Commissioner, only because of your comments on that dilemma we 
are all going to be facing pretty soon, and certainly we are 
going to face it here.
    And that is the worst trickle down, because once it starts 
here, it ends up at a local level where the impact is even more 
severe. So if you were to advise Congress on how to reconcile 
that dilemma, where wold you put the priorities?
    Mr. Coriz. Definitely in education. I think it is critical 
that we start there, especially in New Mexico. That funding 
source goes straight to the State, and the rest is allocated to 
counties.
    Right now it is critical to our operation. Our operation, 
actually with monies that came into play, we have been able to 
stay in the black. We have been able to keep our county 
employee staff where it is at, with no furloughs.
    But in the same result, we see that budgets at our school 
districts are declining, and I think that it is critical that 
we continue to have that balance. I think it is real important, 
Mr. Chairman.
    Mr. Grijalva. Thank you. Mr. Pearce.
    Mr. Pearce. That you, sir. This reauthorization I mentioned 
at the end of my testimony in 2008 was as direct a job stimulus 
as Congress could have possibly made. In my county, it is a 
third of our teachers, and half of the county employees, and I 
just mentioned the two largest employers in the county.
    It goes directly, and it is on the ground and, like you 
said, it is at the lowest level. It is on the ground, and it is 
actually supporting families, and on top of that, it creates 
the infrastructure that allows folks from the metropolitan 
areas to get out of the metropolitan areas and see some of the 
beauty.
    And finally I would say that I don't--I am glad that I am 
not in your position when it comes to this dilemma between 
spending and the debt. I would simply say until the economy 
turns around the debt is only going to grow. And if we stop 
this program, you are going to see----
    Mr. Grijalva. It grow more.
    Mr. Pearce.--without rural America, you are going to see a 
worse recession in rural America. This money actually helped 
many of our rural counties weather this--I guess we are calling 
it the next great recession, this great recession much better 
than we would have.
    Mr. Grijalva. Thank you.
    Mr. Thayer. One of your Committee members mentioned that 
the way out of poverty is education. I read that before. With 
these monies, the better we can educate our citizens--and the 
more jobs they will acquire, and the better industry that we 
can bring into our area.
    Thus, it is a direct correlation to taxes going up, and 
more jobs, and it just contributes to everyone. The better 
educated your people are, the more jobs you have. They go hand-
in-hand.
    Mr. Grijalva. Anyone on the panel is up to--I mean, you are 
free to comment on this question if you choose to, and if not, 
that is fine.
    Ms. Groseclose. Could you repeat the question again, 
please?
    Mr. Grijalva. We are in this dilemma, where we are talking 
about deficit, and balancing the Federal budget because of the 
deficit, and the increasing deficit. But we are also feeling 
the great deal of demand in this instance, and a very 
legitimate demand on the part of rural America, saying that 
this program is working, and you need to fully fund it, if not 
increase it, and these are the benefits which you all talked 
about today.
    And so how do you reconcile that, and if you were to do 
priorities, how would you put the priorities?
    Ms. Groseclose. Well, my priority would definitely have to 
be on education. It is the heart of the world, and I think 
that, for example, we are already at our bare bones.
    I know that I didn't mention any super great thing that we 
may be doing. We are not discovering or making robots and doing 
all these great scientific things in our county, which I wish 
we could be, because we are at bare bones. What I described 
were the special enrichment things that we do have.
    And it is because of SRS funding, and if we were to lose 
that, then we would be teaching math, science, reading, and 
social studies, and that is all our children are going to 
learn, if that, and not to the best of their capabilities. They 
are not going to be competitive in the world.
    We are being geared toward project-based learning, 
community-based learning, getting these kids out there in the 
real world, and teaching them in a real world environment. We 
cannot do that if the Secure Rural Schools funding is lost.
    Mr. Grijalva. Thank you. Well, let me thank the panel and I 
appreciate it very much. I thought that your comments and your 
testimony today about this program, the reauthorization, and 
how it is going were very powerful.
    I think there are some needs, and this is something that we 
need to work with the agencies about expediting the nominee 
process, at least for the RACs, at least on the Federal level. 
Then I think that will energize the parties that have to go 
through this process to do it quickly and continue to advocate 
for the funding that is necessary for this program.
    I think sometimes when you are getting out of a hole, you 
need to spend a little money to make sure everything is 
stabilized. So that debate will continue, and your comments for 
this program are going to be needed as the days go by.
    And Mr. DeFazio said it. I mean, we are going to not only 
internally have this debate among Members of Congress, but I 
anticipate that we are going to have a serious debate with the 
Administration when the budget comes out, and what the 
priorities are from that office. So we will see you then. Thank 
you very much. The meeting is adjourned.
    [Whereupon, at 11:42 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
